Regulation D Exemption Process




                            March 31, 2009
                            Report No. 459
Regulation D Exemption Process        March 31, 2009
Report No. 459
                                 ii
Regulation D Exemption Process

                                 Executive Summary

Background

The Office of Inspector General (OIG) reviewed the Division of Corporation
Finance’s (CF) process for assessing whether companies appropriately use
Regulation D exemptions from registration requirements of the Securities Act of
1933 (Securities Act).

The Securities Act generally requires each sale of a security to be registered with
the Securities and Exchange Commission (SEC or Commission). 1 However, the
law contains certain statutory exemptions and allows the SEC to establish
additional regulatory exemptions from registration when it determines that its
securities registration procedure is not required for the protection of investors
because of the small size or limited nature of the offering. In 1982, the SEC
adopted rules known as Regulation D, which contain exemptions from federal
registration for limited offerings of securities.

Companies that sell securities in reliance on an exemption pursuant to
Regulation D are required to file an SEC Form D2 notice with the Commission.
Companies also may be required to file Form D with their respective state
regulators. Form D serves as the official notice of an offering of securities made
without registration under the Securities Act, in reliance on an exemption
provided by Regulation D. The information in Form D assists the SEC and state
securities regulators to administer the securities laws. By requiring a company to
report detailed information about the nature of an offering such as the amount of
money intended to be raised, the type of exemption on which the company is
relying upon, and the date of the first sale of securities, regulators can use this
information when they investigate whether a company acted in accordance with
the information it reported on Form D, whether the company appropriately relied
on the exemption claimed, and whether the company timely filed Form D. Both
public and nonpublic companies report information using Form D.

On September 15, 2008, the Commission put into effect a revised Form D to
clarify and simplify the reporting process and to eliminate the reporting of
unnecessary information. Also, as of September 15, 2008, companies were able
to file Form D electronically with the SEC, as opposed to sending the Form to the
SEC in hard copy. On March 16, 2009, the SEC launched a system enabling

1
    15 U.S.C. § 77e.
2
    See Form D in Appendix II.
Regulation D Exemption Process                                         March 31, 2009
Report No. 459
                                         iii
SEC staff to analyze Form D information in the aggregate and develop
management reports. Also on March 16, 2009, all Form D filers were required to
file Form D electronically, as opposed to submitting paper filings to the SEC.

Objectives

The OIG initiated this audit in accordance with our audit plan because of the high
dollar amount of capital that is raised through the Regulation D exemption
process. The objectives of the audit were to evaluate the effectiveness of SEC’s
oversight of the Regulation D exemption process and to identify areas for
improvement. We also followed up on recommendations that were made in the
OIG’s prior audit report on this process, Small Business Regulation D Exemption
Process, Report No. 371, issued on March 29, 2004.

Implementation of Prior OIG Audit Report Recommendations

The OIG’s 2004 audit report of the Regulation D exemption process contained
five recommendations. We determined that CF implemented two of the
recommendations, did not implement two recommendations and partially
implemented one recommendation.

CF implemented the prior report’s recommendations D and E to revise Form D
and enable companies to file Form D electronically.

CF did not implement recommendations A and C as follows. Recommendation A
stated that CF should expand its review of SEC registration statements to
determine if companies that file SEC registration statements also file a Form D
when required. The prior audit found that 16 of a sample of 18 companies that
filed SEC registration statements disclosing unregistered sales of securities,
failed to file a corresponding Form D. Recommendation C stated that CF should
track data on Regulation D offerings. CF stated that the costs of implementing
these recommendations outweighed the benefits.

We also found that CF partially addressed recommendation B from the prior OIG
audit report, which stated that CF should consult with the Office of Compliance
Inspections and Examinations (OCIE) to obtain information regarding Regulation
D compliance issues noted during examinations. We believe that CF and OCIE
should further coordinate with each other. In response to this recommendation,
OCIE began to forward some, but not all, copies of its examination reports that
discuss Regulation D issues. Further, OCIE does not copy CF on the referral
memoranda that it sends to the Division of Enforcement (Enforcement) regarding
Regulation D issues.




Regulation D Exemption Process                                        March 31, 2009
Report No. 459
                                        iv
Results

Overall, we found that CF does not generally take action when CF staff learn that
issuers have not complied with the requirements of the Regulation D exemptions.
Further, CF does not substantively review the more than 20,000 Form D filings
that it receives annually, which in 2008, identified total estimated offerings of
$609 billion dollars. 3

Our audit found that it is important for CF to further utilize the information that is
provided in the Form D filings and take appropriate action when CF staff become
aware of Regulation D abuses. Through our own analysis and our review of
OCIE examinations, we identified several instances of misuse, non-compliance,
and illegal acts regarding the Regulation D exemptions, as well as errors in the
Form D filings. Further, we believe that the Form D filings contain valuable
information regarding the size and nature of the reporting firms (including hedge
funds), the amount of capital being raised, the types of exemptions that
companies use, and the number of investors involved in Regulation D issuances.
However, the Commission staff generally do not utilize this information, which, if
aggregated, could identify the size and nature of Regulation D offerings. Using
the database that the SEC launched on March 16, 2009, the Commission now
has enhanced tools to analyze and make use of the Form D information.

Monitoring compliance with the requirements of the Regulation D exemptions is
important to ensure the integrity of the Form D filing process and to ensure that
companies appropriately use the exemptions. Taking action when deficiencies
are identified helps to achieve the SEC’s mission of investor protection. Investor
protection is particularly important with regard to Regulation D because offerings
issued pursuant to Regulation D are exempt from SEC’s securities registration
process.

We found that certain revisions should be made to Form D to better ensure that
potential investors are not misled by the information in a Form D filing and to
further clarify the information that is reported on the Form.

Our audit also found that firms lack formal, written guidelines from the SEC on
filing waivers of disqualification pursuant to Rule 505 of Regulation D.
Companies may seek these waivers when they are found to be non-compliant
with certain provisions of the securities laws and therefore become disqualified
from relying upon Rule 505. CF management told us that initial waiver requests
are often deficient and firms typically need to redraft and resend the waiver
requests to CF. Firms occasionally contact CF seeking written guidance on this
process, but CF has not issued any formal written guidance describing how firms
may apply for the waivers and when they are appropriate. Instead, CF provides

3
    See footnote 18 and the Scope and Methodology section of report (Appendix IV).
Regulation D Exemption Process                                                       March 31, 2009
Report No. 459
                                                 v
oral guidance and refers requestors to the samples of successful waiver requests
on the Commission’s website.

In addition, we determined that the Office of Information Technology (OIT) and
CF did not timely or effectively simplify the SEC’s Electronic Data Gathering and
Retrieval (EDGAR) authentication process for new filers, as was expected. SEC
officials estimated that approximately 19,000 new Form D filers will file Form D
electronically as a result of a new electronic filing requirement that took effect on
March 16, 2009, 4 making this the second largest group of new filers to EDGAR.
The current authentication process is overly complex and time-consuming. In a
Commission meeting in December 2007, OIT and CF agreed to begin working
together to simplify this process. 5 In fact, CF informed us that its staff had been
working with OIT staff for several years to simplify the process, even prior to the
Commission meeting. The simplified process, which took effect on March 16,
2009, merely consists of allowing new filers to attach a notarized document to an
online submission to the SEC as a PDF document, as opposed to faxing the
document to the SEC, as was previously required, and is therefore inadequate. 6
Moreover, in our opinion, and according to OIT and CF staff, an adequate
simplification process should have been implemented prior to March 16, 2009.

Further, the Commission needs to continue to improve its coordination with state
regulators to ensure greater uniformity in federal and state securities regulation.
In particular, further coordination is needed to assist the North American
Securities Administrators’ Association (NASAA), the organization of state
securities regulators, in building an electronic system that could be linked to
EDGAR and allow companies to file Form D with the states electronically.
Currently, issuers can only file Form D electronically with the Commission and
must file paper Form Ds with the states.

We found the staff in CF’s Office of Small Business Policy to be extremely
knowledgeable of the Regulation D process and believe they could provide
expertise to staff in OCIE and Enforcement regarding Regulation D issues that
arise in OCIE examinations and Enforcement investigations and actions. We
also noted that the Commission finalized a rule in February 2008, which provided
for a revised Form D and enabled issuers to file Form D electronically with the
SEC, as of September 15, 2008. 7 The staff in CF’s Office of Small Business
Policy worked diligently to make these changes, which are significant
improvements to the Regulation D filing process.


4
  OIT approximates that there are currently 200,000 to 300,000 EDGAR filers in total. This
includes filers that file Form D, as well as other filings with the SEC.
5
  Transcript of an Open Commission meeting on December 11, 2007, page 37.
6
  Commission staff noted that they plan to further simplify the authentication process.
7
  SEC Final rule: Electronic Filing and Revision of Form D, Release No. 33-8891, 73 FR 10592,
February 27, 2008.
Regulation D Exemption Process                                                   March 31, 2009
Report No. 459
                                              vi
Summary of Recommendations

Our audit report contains the following recommendations. CF and the
Commission should develop a process to assess and better ensure issuers’
compliance with Regulation D and take appropriate action when CF finds that
companies have materially misused the Regulation D exemptions. CF should
establish a means to review Form D information in the aggregate and develop
meaningful management reports.

CF, in consultation with Enforcement, should take appropriate action when
issuers fail to file Form D in accordance with Rule 503. For example, CF could
establish general criteria or guidance describing when it believes it is appropriate
for the Commission to initiate an Enforcement action against an issuer that fails
to file a Form D, and request that a court enjoin an entity from violation Rule 503.
Currently, issuers do not face any tangible consequences for failing to file a Form
D.

CF should reintroduce its Early Intervention Program, which is designed to
identify potential securities’ laws violators and notify them of potential violations.
CF should develop criteria describing when it is appropriate to refer potential
Regulation D abuses to its Office of Enforcement Liaison and subsequently to
Enforcement. CF should continue to discuss with the Chairman, the
Commissioners and Commission senior staff, the merits of the Commission’s
proposed rule regarding Regulation D and any changes that should be made to
this proposed rule. 8 In addition, CF should raise with the Commission, the option
of making the filing of Form D a required condition for issuers to claim the
Regulation D exemptions contained in Rules 504, 505 and 506.

CF should work with OIT to make certain changes to Form D to better ensure
that potential investors do not rely upon erroneous or misleading information in
Form D filings and to further clarify the Form. One improvement includes adding
a statement to Form D stating that the Commission has not necessarily reviewed
the information in Form D and that the reader should not assume that the
information in the Form is accurate or complete. Other Commission filings
contain similar disclaimers.

CF and OIT should work together to further simplify the EDGAR authentication
process for new EDGAR filers. CF should issue written guidance to the public on
how firms may apply for waivers of disqualification under Rule 505 of Regulation
D. CF should also continue to improve its coordination with State regulators
regarding Regulation D issues.



8
 See SEC Proposed rules; request for additional comments, Revisions of Limited Offering
Exemptions in Regulation D, Release No. 33-8828, 72 FR 45116, August 10, 2007.
Regulation D Exemption Process                                                  March 31, 2009
Report No. 459
                                             vii
CF should provide additional guidance to issuers on the Form D filing
requirements. Finally, CF should implement the outstanding recommendations
that were made in the OIG’s prior audit report, which was issued in 2004. 9




9
 OIG Audit Report: Small Business Regulation D Exemption Process, Report No. 371, issued on
March 29, 2004.
Regulation D Exemption Process                                                March 31, 2009
Report No. 459
                                            viii
                             TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ........................................................................................................ ix

Background and Objectives .......................................................................................... 1

Findings and Recommendations................................................................................... 8

         Finding 1: CF is Not Taking Effective Action in Response to Regulation D
         Deficiencies........................................................................................................ 8
                       Recommendation 1..................................................................... 12
                       Recommendation 2..................................................................... 12
                       Recommendation 3..................................................................... 13

         Finding 2: The Commission Has Not Taken Advantage of Certain
         Opportunities to Address Regulation D Deficiencies........................................ 13
                      Recommendation 4..................................................................... 17
                      Recommendation 5..................................................................... 17
                      Recommendation 6..................................................................... 18
                      Recommendation 7..................................................................... 18

         Finding 3: The OIG Identified Several Instances of Non-compliance with
         Regulation D .................................................................................................... 18
                      Recommendation 8..................................................................... 20

         Finding 4: Form D Should be Improved ........................................................... 20
                      Recommendation 9..................................................................... 22

         Finding 5: CF Did Not Implemented all of the Recommendations Made in
         the Prior OIG Audit Report ............................................................................... 23
                      Recommendation 10................................................................... 25
                      Recommendation 11................................................................... 25

         Finding 6: Firms Lack Written Guidance on Filing Requests for Waivers of
         Disqualification Under Rule 505 of Regulation D ............................................. 25
                        Recommendation 12................................................................... 27

         Finding 7: OIT and CF Did Not Timely or Effectively Simplify the EDGAR
         Authentication Process for New Filers ............................................................. 27
                      Recommendation 13................................................................... 29
                      Recommendation 14................................................................... 29


Regulation D Exemption Process                                                                        March 31, 2009
Report No. 459
                                                         ix
         Finding 8: The Commission’s Coordination with State Regulators Needs to
         Continue to Improve......................................................................................... 29
                      Recommendation 15................................................................... 33
                      Recommendation 16................................................................... 33
                      Recommendation 17................................................................... 33

Appendices
     Appendix I: Acronyms. .................................................................................... 34
     Appendix II: Form D ........................................................................................ 35
     Appendix III: EDGAR Filer Authentication Process ......................................... 39
     Appendix IV: Scope and Methodology ............................................................ 40
     Appendix V: Criteria ........................................................................................ 44
     Appendix VI: List of Recommendations .......................................................... 45
     Appendix VII: Management Comments
           CF.......................................................................................................... 50
           OCIE...................................................................................................... 58
           OIT and Enforcement ............................................................................ 60
     Appendix VIII: OIG Response to Management Comments ............................. 61




Regulation D Exemption Process                                                                    March 31, 2009
Report No. 459
                                                        x
                   Background and Objectives
History of Regulation D

Regulation D was part of a U.S. Securities and Exchange Commission (SEC or
Commission) initiative to provide a more coherent pattern of exemptive relief
from the registration requirements of the Securities Act, and to address the
capital formation needs of small businesses. The Commission adopted
Regulation D and Form D in 1982. 10

In 1986, the Commission modified the requirements relating to Form D, making
the Form a uniform notification that could be filed with state securities regulators.
This effort was undertaken with the cooperation of the North American Securities
Administrators’ Association (NASAA) to help reduce the costs of capital formation
for small businesses and to promote uniformity between federal and state
securities regulation.

In 1989, the Commission amended the Regulation D exemptions to eliminate the
requirement to file Form D as a condition of relying upon the Regulation D
exemptions. At that time, the SEC also added Rule 507 to Regulation D to
provide an incentive for issuers to make a Form D filing, even though it was no
longer a condition for claiming the Regulation D exemptions. 11

In 1996, the Commission issued a proposed rule to eliminate the requirement to
file Form D with the SEC and instead require issuers to complete a Form D and
retain it for a period of time. After considering the comments received on this
proposed rule, the Commission determined that the information collected in Form
D filings was still useful in conducting economic and other analyses of the private
placement market and retained the filing requirement. 12

Regulation D Provisions

The Securities Act of 1933 (Securities Act) 13 generally requires each sale of a
security to be registered with the SEC. However, the law contains certain
statutory exemptions and allows the SEC to establish additional regulatory
exemptions from registration when it determines that its securities registration

10
   SEC Adoption of final rules, rule amendments, and form, and rescission of rules and forms:
Revision of Certain Exemptions from Registration for Transactions Involving Limited Offers and
Sales, Release No. 33-6389, 47 FR 11251, March 16, 1982.
11
   SEC Final rules: Regulation D; Accredited Investor and Filing Requirements, Release No. 33-
6825, 54 FR 11369, March 20, 1989.
12
   SEC Final rules: Phase Two Recommendations of Task Force on Disclosure Simplification,
Release Nos. 33-7431 and 34-38850, 62 FR 39755, July 24, 1997, at 39755-56.
13
   15 U.S.C. § 77e.
Regulation D Exemption Process                                                   March 31, 2009
Report No. 459
                                           Page 1
procedure 14 is not required for the protection of investors 15 because of the small
size or limited nature of the offering. In 1982, the SEC adopted rules known as
Regulation D, which contain exemptions from federal registration for private
securities offerings. 16

Regulation D was designed to facilitate capital formation, while protecting
investors, by simplifying and clarifying the existing exemptions for private or
limited offerings, expanding their availability, and providing more uniformity
between federal and state exemptions. Although Regulation D originated as an
effort to assist small business capital formation, companies of all sizes may use
the Regulation D registration exemptions. 17

In general, to qualify for a Regulation D exemption, a company that is selling
securities is prohibited from advertising or otherwise offering the sale of the
securities to the general public. For the exemptions to apply, a company may
offer and sell the securities to only a limited group of investors. Further,
securities sold pursuant to a Regulation D exemption cannot be resold unless
they first are registered or are subject to an exemption covering the resale.

Capital Intended to be Raised Using the Regulation D Process

Issuers report the amount of capital they intend to raise on Form D. By analyzing
a sample of data, the OIG estimated that in 2008, companies intended to raise
approximately $609 billion 18 by relying on the Regulation D exemption process.

14
   In general, registration statements require companies to provide a description of the company's
properties and business, a description of the security to be offered for sale, information about the
management of the company, and financial statements certified by independent accountants.
Registration statements become public shortly after the company files them with the SEC. See
http://www.sec.gov/answers/regis33.htm.
15
   Section 3(b) of the Securities Act, 15 U.S.C. § 77c(b) provides that “[t]he Commission may from
time to time by its rules and regulations, and subject to such terms and conditions as may be
prescribed therein, add any class of securities to the securities exempted as provided in this
section, if it finds that the enforcement of this title with respect to such securities is not necessary
in the public interest and for the protection of investors by reason of the small amount involved or
the limited character of the public offering; but no issue of securities shall be exempted under this
subsection where the aggregate amount at which such issue is offered to the public exceeds
$5,000,000.”
16
   SEC Adoption of final rules, rule amendments, and form, and rescission of rules and forms:
Revision of Certain Exemptions from Registration for Transactions Involving Limited Offers and
Sales, Release No. 33-6389, 47 FR 11251, March 16, 1982. See 17 C.F.R. §§ 230.504, 230.505
and 230.506.
17
   See SEC Proposed rules; request for additional comments, Revisions of Limited Offering
Exemptions in Regulation D, Release No. 33-8828, 72 FR 45116, August 10, 2007, page 5.
18
   This figure does not take into account the number of companies that raised capital through
unregistered securities offerings without filing a Form D with the Commission; this information is
unknown and therefore could not be included in the estimate. The OIG made this estimate by
examining 323 electronic Form D filings made between September 15, 2008 and December 31,
2008. The OIG recorded the total amount of capital the 323 issuers intended to raise and then
Regulation D Exemption Process                                                           March 31, 2009
Report No. 459
                                               Page 2
According to the OIG’s 2004 report on the Regulation D process, the
Commission recorded that the nation’s small businesses reported unregistered
offerings of $1.2 trillion in securities from January 2000 to March 2001. 19 Neither
the Commission, nor any other entity of which we are aware of, collects
aggregate information on the dollar amount of capital raised or intended to be
raised through Regulation D offerings. Thus, we have no firm way of determining
whether or not the amount of money raised through this process has actually
decreased since January 2000 to March 2001.

The Division of Corporation Finance’s (CF) Office of Small Business Policy
administers the Regulation D program. The staff consists of five lawyers, one of
whom is the Office Chief, and a secretary.

Regulation D Rules

Regulation D consists of Rules 501-508. 20 A description of these eight rules is
shown in Table 1 below.

Table 1: Regulation D Rules 501 - 508
 Rule                               Description

501 &     Contain definitions and general conditions that apply throughout
502       Regulation D.
503       Requires that a company offering securities in reliance upon Rules 504,
          505 or 506, must file a Form D no later than 15 calendar days after the
          date of the first sale of securities in the offering, unless the end of that
          period falls on a Saturday, Sunday or holiday, in which case the due
          date would be the first business day following. Also describes when
          issuers must file an amendment to a Form D.
504       Provides exemptions for companies that are not subject to reporting
          requirements under the Securities Exchange Act of 1934 21 for the offer
          and sale of up to $1,000,000 of securities in a 12-month period.
505       Exempts offers by companies of up to $5,000,000 of securities in a 12-
          month period to “accredited investors” 22 and a limited number of other
          persons, so long as offers are made without general solicitation or

calculated the average capital amount per filing. The OIG multiplied this average capital amount
by the total number of Form D filings that SEC received in calendar year 2008. A more detailed
description of this estimate is provided in the report’s Scope and Methodology section in
Appendix IV.
19
   See OIG Report: Small Business Regulation D Exemption Process, Report No. 371, issued on
March 29, 2004, p.1.
20
   17 C.F.R. §§ 230.501 – 230.508.
21
   15 U.S.C. § 78a et seq.
22
   Accredited investors include certain banks, private businesses and other organizations, as well
as any individual with an annual income in excess of $200,000 or a net worth (individually or with
the person’s spouse) in excess of $1 million. See complete definition at 17 C.F.R. § 230.501(a).
Regulation D Exemption Process                                                      March 31, 2009
Report No. 459
                                            Page 3
          advertising.
506       Provides for a safe harbor for the private offering exemption under
          Section 4(2) of the Securities Act 23 without any limit on the offering
          amount, so long as offers are made without general solicitation or
          advertising and sales are made only to “accredited investors” and a
          limited number of non-accredited investors who satisfy an investment
          sophistication standard.
507       Disqualifies issuers from relying on Regulation D, under certain
          circumstances, for the failure to file a Form D notice.
508       Provides a safe harbor for certain insignificant deviations from a term,
          condition, or requirement of Regulation D.
Source: OIG Generated


Form D, Notice of Exempt Offering of Securities

Form D serves as the official notice of an offering of securities made without
registration under the Securities Act, in reliance on an exemption provided by
Regulation D. Both public and nonpublic companies file information using Form
D.

According to CF, companies that offer securities in reliance on a Regulation D
exemption pursuant to Regulation D are required to file an SEC Form D notice
with the Commission. 24 They are also required to make disclosure information
available to their investors regarding the issuer and the offering. Companies
usually meet this requirement by delivering a document, frequently called a
“private placement memorandum,” to prospective investors. For Regulation D
offerings, companies are not required to file this memorandum with the
Commission, nor are companies required to file registration statements with the
Commission.

CF staff stated that the SEC Form D is not a disclosure document for investors.
However, Form Ds are available to the public on Internet and the public may rely
upon the information contained in the Form D filings.

In contrast to Regulation D offerings, companies that make public offerings to
investors are required to file registration statements with the Commission, which
serve as both a notice to the Commission and a disclosure document for
investors, according to CF.

A Form D filer may file an amendment to a previously filed Form D notice at any
time. 25 A filer is required to file an amendment to a previously filed notice to


23
   15 U.S.C. 77d(2).
24
   17 C.F.R. § 230.503(a)(1). See Form D in Appendix II.
25
   17 C.F.R. § 230.503(a)(2).
Regulation D Exemption Process                                           March 31, 2009
Report No. 459
                                           Page 4
correct material mistakes, to reflect certain changes in information 26 and, as of
March 16, 2009, on an annual basis provided the offer is continuing at that time.

Filing Requirements

While filing a Form D is a requirement of Rule 503(a), it is not a condition for
claiming the exemptions in Rules 504, 505 and 506 of Regulation D. 27 Rule
503(a) states that any issuer that offers or sells securities in reliance on Rules
504, 505, or 506 of Regulation D must file Form D with the SEC within 15 days
after the first sale of the securities in the offering. 28 Although the obligation to file
Form D is not a condition for claiming a valid exemption under Regulation D, an
issuer could be disqualified from use of Regulation D for future transactions if the
issuer or any of its predecessors or affiliates, have been temporarily,
preliminarily, or permanently enjoined by a court for failure to file Form D.29
However, CF staff said that to date no court has enjoined an issuer based upon
its failure to file a Form D, nor has the Commission ever sought such relief.

Purpose of Filing Form D

The Form D filing requirement is intended to serve two primary purposes:

     •   Collection of data for use in the Commission’s rulemaking efforts; and
     •   Enforcement of the federal securities laws, including the Regulation D
         exemptions. 30

The information in Form D also assists state securities regulators and the
Financial Industry Regulatory Authority (FINRA) 31 to enforce securities laws and
the rules of the securities self-regulatory organizations.




26
   17 C.F.R. § 230.503(a)(3).
27
   Securities Act Rules, Questions and Answers of General Applicability,
http://sec.gov/divisions/corpfin/guidance/securitiesactrules-interps.htm, Answer to Question
257.07.
28
   17 C.F.R. § 230.503(a).
29
   17 C.F.R. § 230.507. Under Rule 507(b), the Commission may determine, upon a showing of
good cause, that it is not necessary under the circumstances for the exemption to be denied.
30
   SEC final rule: Electronic Filing and Revision of Form D, Release No. 33-8891, 73 FR 10592,
February 27, 2008, page 7.
31
   FINRA is the largest non-government regulator for all securities firms doing business in the
United States. FINRA oversees nearly 5,000 brokerage firms, 172,000 branch offices and
663,000 registered securities representatives. FINRA’s chief role is to protect investors by
maintaining the fairness of the United States’ capital markets. See
http://www.finra.org/index.htm.
Regulation D Exemption Process                                                    March 31, 2009
Report No. 459
                                            Page 5
Recent Changes to Form D

On September 15, 2008, the SEC put into effect a new version of Form D to:
   • Clarify and simplify the reporting process;
   • Ensure that pertinent information was required to be reported; and
   • Eliminate the reporting of unnecessary information.

Unlike the prior Form D, the new Form D requires the issuer to disclose the date
of the first sale of securities, additional information about the issuer, as well as
additional information about the recipients of sales commissions. Also, the new
Form D no longer requires issuers to name beneficial owners or provide details
regarding the use of offering proceeds. The new form D clarifies when issuers
are required to file amendments.

Electronic Filing of Form D

Up until September 15, 2008, a company’s only option was to file the prior Form
D with the SEC in paper form. During a transition period from September 15,
2008, through March 15, 2009, companies were able to file either the old version
of Form D with minor changes (such as the number of copies to be filed) on
paper or the new version of Form D on paper or electronically. Electronic
submissions are made through the SEC’s Electronic Data Gathering and
Retrieval (EDGAR) filing system. 32

As of March 16, 2009, the SEC no longer accepts paper filings, nor does the
SEC accept the prior Form D. Thus, the SEC now requires all filers to submit the
new Form D electronically. Also, on March 16, 2009, the SEC launched a
database of Form D information, which enables SEC staff to examine the data in
the aggregate and produce management reports.

Federal and State Coordination

Form D serves as a uniform notification that can be filed with the Commission
and most states. 33 Although state securities regulators have access to the Form
D filings made with the Commission, SEC is currently working with NASAA, the
organization of state securities regulators, to establish a “one-stop” filing system.
This system would link SEC’s Form D filing system with a NASAA-sponsored
system to be developed by state securities regulators, thereby enabling filers to
submit their Form D filings to the SEC and their appropriate state regulators in

32
    EDGAR is the Commission’s database that companies use to file registration statements,
periodic reports and other forms electronically with the SEC.
33
    According to the American Bar Association, forty eight states, the District of Columbia, Puerto
Rico and the U.S. Virgin Islands accept the SEC’s Form D as the state filing for unregistered
securities offerings. New York prescribes a separate filing, and Florida does not require any
filing.
Regulation D Exemption Process                                                        March 31, 2009
Report No. 459
                                              Page 6
one electronic transmission. This system is expected to enhance uniformity and
coordination among the SEC and the states. Until the anticipated “one-stop”
filing becomes available, issuers will continue to file a paper copy of Form D with
their respective states, if required. A timetable has not been established to link
the two systems.


Objectives
The OIG initiated this audit in accordance with our audit plan because of the high
dollar amount of capital raised through the Regulation D exemption process. The
objectives of the audit were to evaluate the effectiveness of the SEC’s oversight
of the Regulation D exemption process and identify areas for improvement. The
OIG also followed up on recommendations made in the OIG’s prior audit report
on this process, Small Business Regulation D Exemption Process, Report No.
371, issued on March 29, 2004.




Regulation D Exemption Process                                         March 31, 2009
Report No. 459
                                      Page 7
             Findings and Recommendations
Finding 1: CF is Not Taking Effective Action in
Response to Regulation D Deficiencies
        CF does not substantively review Form D filings, determine
        whether issuers appropriately use the Regulation D
        exemptions, and generally does not take action when CF
        staff learn that issuers are non-compliant with the rules of
        Regulation D. There are many different types of abuses and
        non-compliance issues involving Regulation D, including
        illegal securities offerings, which could be addressed by
        appropriate CF or Commission action.

No Review of Form D Filings

The Commission received 28,594 and 27,107 Form D filings in calendar years
2007 and 2008, respectively. 34 CF informed the OIG that SEC staff does not
substantively review the information in the Form D filings, and that the filings are
only intended to be notice filings. CF officials said that the Commission only
reviews Form D filings or makes substantive use of the information on a selective
basis, in connection with investigations conducted by the Division of Enforcement
(Enforcement), program monitoring and rulemaking. CF officials also said that
Form D was not designed for the purpose of determining if the Regulation D
exemptions are being misused and that the purpose of the Form D filing was to
ensure adequate notice to federal and state regulators of Regulation D offerings
and to provide empirical data for further Commission rulemaking.

Nevertheless, without reviewing even a sample of Form D filings, we believe that
CF deprives itself of the opportunity to obtain information regarding the types of
exemptions on which issuers rely upon, the amount of capital intended to be
raised, whether issuers erroneously fill out portions of Form D, whether
companies misuse the Regulation D exemptions, and whether the Forms were
filed timely. 35 Thus, the SEC’s overall Form D review process does not ensure
that issuers adequately disclose information about their offerings because the


34
   These figures are derived from the Commission’s EDGAR system and include Form D
amendments. In 2007, the SEC received 20,966 Form Ds and 7,628 Form D amendments. In
2008, the SEC received 20,021 Form Ds and 7,086 Form D amendments.
35
   The Commission issued a revised Form D, which became effective on September 15, 2008.
Unlike the prior Form D, the new Form D requires information enabling one to determine whether
the Form was filed timely.
Regulation D Exemption Process                                                   March 31, 2009
Report No. 459
                                           Page 8
Forms do not receive appropriate scrutiny. Thus, we concluded that the SEC
relies upon the “honor system” for filers to fill out Form D.

The information reported on Form D is important because it could alert SEC staff
to deficiencies in the filing process and “red flags” that could be indicative of
serious problems, such as filing a Form D as part of an illegal offering. The Form
D information could also assist SEC staff to evaluate the effectiveness of the
filing process, to enhance that process and develop future rules changes,
policies and procedures.

CF staff stated that it was too burdensome for them to review the Form D filings
when they were in paper form. However, Form D is now filed electronically and
the Office of Information Technology (OIT) launched a system on March 16,
2009, which enables SEC staff to analyze the Form D data in the aggregate and
produce management reports. Using this system, SEC staff are now able to
ascertain quickly the total amount of capital intended to be raised through
Regulation D, whether issuers timely filed Form D, the types of exemptions used,
and compliance with some of the requirements of those exemptions.

Further, in a Commission meeting on December 11, 2007, Commission staff
discussed their desire to begin using the information reported in the new Form D
about hedge funds to learn more about their size and the extent to which hedge
funds raise capital through the Regulation D exemption process. 36 The prior
Form D did not specify any information related to hedge funds, even though
hedge funds might be identifiable from the information reported or required to be
reported. The new system could be used to obtain much better information
about the size and number of hedge funds that file Form D with the
Commission. 37

CF Staff Generally Do Not Contact Companies that Misuse the Regulation D
Exemptions

CF staff generally do not contact companies when the staff become aware that
companies are misusing the Regulation D exemptions. Staff in CF’s Office of

36
   Transcript of Open Commission meeting on December 11, 2007, pages 37-39.
37
   Staff in CF’s Office of Small Business Policy are alerted by other Commission staff or outside
sources, including state regulators, to non-compliance with the Regulation D filing requirements.
OCIE staff periodically send CF’s Office of Small Business Policy staff copies of OCIE
examination reports that detail violations or abuses related to Regulation D. These CF staff also
review Commission action memoranda and other information from Enforcement pertaining to
Regulation D issues that are discussed or reviewed by the Chairman and the Commissioners.
Additionally, CF may receive tips and referrals from the public concerning issuers that are
misusing the Regulation D exemptions. CF’s Office of Enforcement Liaison reviews all Action
Memoranda relating to violations of Section 5 of the Securities Act, including those alleging
failures to comply with Section 5 due to an entity’s failure to satisfy the conditions of Regulation D
exemptions.
Regulation D Exemption Process                                                         March 31, 2009
Report No. 459
                                              Page 9
Small Business Policy are extremely knowledgeable of the Regulation D
exemption process and in an excellent position to take appropriate action when
certain Regulation D compliance issues arise, especially if they are not so
material as to warrant a referral to Enforcement. Taking appropriate action when
deficiencies are identified is important because the SEC is responsible for
enforcing the securities laws in order to achieve the SEC’s mission of investor
protection. Investor protection is particularly pertinent to the Regulation D filing
process because offerings issued pursuant to Regulation D are exempt from
SEC’s securities registration process.

CF staff stated that the program was not designed for them to contact companies
that misused or violated the Regulation D rules, but they could refer issues to
Enforcement for its consideration and possible investigation or enforcement
action. As discussed on pages 13-14 of this report, however, CF rarely refers
Regulation D issues to Enforcement and there is no guarantee that a referral to
Enforcement will result in an investigation or enforcement action.

Lack of Consequences for an Issuer’s Failure to File Form D

Rule 507 disqualifies an issuer from using a Regulation D exemption in the future
if the issuer has been enjoined by a court for failure to comply with Rule 503,
which requires companies to file Form D information with the Commission. 38 The
Commission added Rule 507 to Regulation D to provide an incentive for issuers
to make a Form D filing, even though the Form D filing is no longer a condition
for claiming the Regulation D exemptions. An issuer may have an incentive to
file Form D because, by doing so, it avoids the possibility that a court will enjoin
the issuer for violating Rule 503 and disqualify the issuer from conducting future
Regulation D private offerings. 39

CF management informed the OIG that apparently, the SEC originally intended
for Rule 507 to serve as the basis for a compliance program to enforce the filing
requirement of Rule 503, but Rule 507 has not actually been used in that way.
The SEC has never brought a single action against a company for violating Rule
503 by not filing a Form D. Also, according to CF, no court has ever enjoined a
company for its failure to comply with Rule 503, as contemplated by Rule 507.
While staff in CF’s Office of Small Business Policy stated that they strongly
encourage companies to comply with Rule 503, they are aware of instances in
which issuers have failed to comply with Rule 503, and the SEC does not have
an effective compliance program for this Rule. As a result, there are simply no
tangible consequences when a company fails to file a Form D. Further, the
Commission’s objective in adding Rule 507 as an incentive for issuers to file


38
  17 C.F.R. § 230.507.
39
  SEC Final rule: Electronic Filing and Revision of Form D, Release No. 33-8891, 73 FR 10592,
February 27, 2008, pages 5-6.
Regulation D Exemption Process                                                  March 31, 2009
Report No. 459
                                          Page 10
Form D has not been achieved since no issuers have been enjoined for violating
Rule 503.

According to an examination report issued by the Office of Compliance
Inspections and Examinations (OCIE), in August 2008, the importance of
enforcing Rule 503 should not be underestimated. Such enforcement would
send a strong message to issuers and their affiliated parties who exploit
Regulation D, that these offerings cannot be conducted secretly, without the
necessary disclosures. According to this report, when an issuer fails to file a
Form D, the market, specifically the individual retail investors who purchase and
hold the shares, lack necessary information such as the size of the issuance.
This typically dilutes the value of the stock holdings in that issue and accordingly,
reduces the price of the stock. 40

OCIE Examination Reports Revealed Illegal Activities

OCIE staff examine SEC registered entities, including broker-dealers, investment
companies and investment advisers. The OIG reviewed the reports for 14 OCIE
examinations conducted between October 1, 2007 and December 31, 2008, that
discussed issues related to Regulation D.

Four of these OCIE examinations identified instances where individuals exploited
certain loopholes afforded to issuers in offerings made under Rule 504 of
Regulation D. Specifically, these OCIE examinations found that issuers relied
upon vague exemption statutes of certain states, as a way of obtaining significant
amounts of unrestricted Rule 504 stock and then immediately selling the stock
into the marketplace, without a registration statement having been filed or in
effect, and for which no exemption was, or is, truly available. These activities
result in “pump and dump” schemes, whereby individuals purchase securities,
fraudulently inflate their value and then immediately sell them into the
marketplace. The immediate resale of such securities is not consistent with Rule
504 of Regulation D, according to Commission staff. In one instance, an OCIE
examination reported that an individual generated over $24 million through such
transactions.

Seven OCIE examinations identified misuses of Rule 506 because general
solicitations were used to offer and sell securities. 41 One examination found that
an issuer failed to meet the exemption of the safe harbor provision of Rule 506
by selling securities to too many non-accredited investors. Three examinations



40
   This information was identified in an OCIE examination report that was issued in 2008, which
identified Rule 504 abuses.
41
   In one of these seven instances, the OCIE exam noted the “possible” use of general
solicitation.
Regulation D Exemption Process                                                     March 31, 2009
Report No. 459
                                           Page 11
found that issuers failed to file a Form D or did not timely file Form D, in violation
of Rule 503. 42

The above-described OCIE examinations, which identified misuses of the
Regulation D exemptions, including fraudulent activities, further illustrate the
need for CF to contact companies that abuse the Regulation D provisions or take
other appropriate action.

Recommendation 1

The Division of Corporation Finance (CF) should develop a process to assess
and better ensure issuers’ compliance with Regulation D. CF should include in
this process a periodic review of the Form D filings, an assessment of the
accuracy and timeliness of the filings, and the identification of problems or “red
flags” with the filings. When CF believes that companies have materially
misused the Regulation D exemptions, CF should take appropriate action such
as contacting the offenders, and/or referring the matter(s) to the Division of
Enforcement, the appropriate state regulator or other regulatory authority.

Recommendation 2

The Division of Corporation Finance (CF) should establish a procedure to review
Form D information in the aggregate and develop meaningful management
reports that provide information about the filings, such as:

      •   The aggregate amount of capital intended to be raised on an annual basis;
      •   The average amount of capital intended to be raised per filing;
      •   The number of filings that were filed timely;
      •   The number of filings made by hedge funds and the aggregate net asset
          value of those funds;
      •   The number of filings made pursuant to Rules 504, 505, 506;
      •   The types of companies that use the Regulation D filing process; and
      •   The extent to which small businesses use the Regulation D process to
          raise capital.

CF should use the information in the management reports to further understand
the size and nature of the companies that raise capital through the Regulation D
process and to assist CF in developing future policies, procedures and rule
changes.




42
     In one of these three instances, the OCIE exam noted a “possible” failure to file a Form D.
Regulation D Exemption Process                                                         March 31, 2009
Report No. 459
                                               Page 12
Recommendation 3

The Division of Corporation Finance (CF), in consultation with the Division of
Enforcement, should take appropriate action when issuers fail to file Form D in
accordance with Rule 503. For example, CF could establish general criteria or
guidance describing when it believes it is appropriate for the Commission to
initiate an Enforcement action against an issuer that fails to file a Form D and
request that a court enjoin an entity from violating Rule 503.


Finding 2: The Commission Has Not Taken
Advantage of Certain Opportunities to Address
Regulation D Deficiencies
        CF has a centralized office for reviewing and forwarding
        referrals to Enforcement for possible investigation or
        enforcement action. This office, however, only referred one
        issue involving Regulation D to Enforcement from October 1,
        2007 to December 31, 2008.

        CF no longer runs an “Early Intervention Program,” whereby
        CF staff actively looked for potential violations of the
        securities laws and sent letters to potential violators.

        CF drafted a proposed rule in 2007, which contained
        provisions designed to strengthen Regulation D. Despite
        efforts by CF to have the rule approved, the Commission has
        neither finalized nor set a timeframe for finalizing this rule.

        Finally, the Commission does not require issuers to file a
        Form D notice as a condition for claiming the exemptions in
        Rules 504, 505 and 506 of Regulation D.

CF’s Referral Process

CF refers certain potential violations or abuses to its Office of Enforcement
Liaison (OEL). This office within CF reviews the merits of each issue and
determines whether to refer the issue to Enforcement for further consideration.
Enforcement is responsible for conducting investigations into possible violations
of the federal securities laws and prosecuting the Commission's civil suits in the
federal courts and in administrative proceedings.



Regulation D Exemption Process                                            March 31, 2009
Report No. 459
                                      Page 13
If CF’s OEL forwards an issue to Enforcement, Enforcement must then decide
whether to open an inquiry and/or investigation into the matter. Enforcement’s
decision is often based on staff resources and the perceived severity of the
potential violation or abuse.

CF stated that its OEL staff follow up with Enforcement about the status of
referrals and provide guidance to Enforcement on Regulation D issues.
However, staff in the Office of Small Business Policy do not ascertain whether
CF’s OEL referred Regulation D issues to Enforcement or whether Enforcement
took action in response to such referrals. If the staff in CF’s Office of Small
Business Policy followed up with and offered guidance to Enforcement regarding
Regulation D issues, these staff could share their Regulation D expertise with
Enforcement, which could result in more effective Enforcement actions involving
Regulation D abuses.

Staff in CF’s Office of Small Business Policy estimated that they refer three to
four Regulation D issues per year to CF’s OEL. From October 1, 2007 to
December 31, 2008, however, CF’s OEL subsequently referred only two issues
to Enforcement that involved Regulation D and/or Section 5 violations. (Section
5 violations often include Regulation D abuses.) One of these two referrals
involved Regulation D offerings and the other did not. Thus, we determined that
CF’s OEL rarely refers issues related to Regulation D to Enforcement.

CF management expressed the belief that Enforcement will not routinely follow
up on Regulation D issues due to resource constraints, the difficulty in proving
Regulation D issues that tend to be highly technical, and the fact that
Enforcement may choose to pursue more high profile violations or abuses rather
than “less desirable” Regulation D abuses. Thus, CF generally believes that any
referrals involving Regulation D violations will not result in subsequent
Enforcement actions. As a result, we determined that CF’s referral process for
bringing issues related to Regulation D to Enforcement’s attention is rarely used
and needs improvement.

CF’s Early Intervention Program

CF worked with Enforcement to develop an Early Intervention Program, which
began in 1999 and ended in August 2005. The program was intended to combat
fraud and other securities law violations that were perpetrated through the
Internet. This program provided CF with the ability to search for problems such
as potential non-compliance with the securities laws and send out letters to
potential violators. The program’s goal was to encourage individuals and
companies to comply with applicable securities laws.

Pursuant to the Early Intervention Program, CF staff checked the Internet and
other electronic media and gathered information about securities offerings. CF
Regulation D Exemption Process                                       March 31, 2009
Report No. 459
                                    Page 14
then sent letters to entities that CF believed were not in compliance with the
federal securities laws and regulations, including Regulation D. CF staff sent
letters to alleged violators requesting compliance within a specified timeframe, as
well as a written response to CF. CF then reviewed each entity’s subsequent
response and actions. If the alleged violator did not take appropriate action, CF
had the option of referring the issue to Enforcement for further investigation.

During its early intervention reviews, CF staff often identified abuses that were
directly related to Regulation D, such as illegal advertising of securities pursuant
to unregistered offerings

The OIG believes that the early intervention program was helpful because it
allowed CF staff to intervene early enough to stop ongoing violations and
abuses, which could be more efficient and effective than referring issues to
Enforcement. Further, CF reported that it achieved about a seventy percent
success rate in resolving issues through this program. CF management said that
through this program, CF staff identified Regulation D abuses such as the
solicitation of offerings to the general public and companies’ failure to file Form
Ds with the Commission.

The early intervention program ended in August 2005, when CF no longer had
staff to administer the program. We determined that the demise of this program
has reduced CF’s opportunities to contact issuers who misuse the Regulation D
exemptions. If the program were to be reintroduced, CF would have an
additional opportunity to contact potential securities laws violators, including
issuers that misuse the Regulation D exemptions.

SEC Proposed Rule

CF drafted a proposed rule to revise Regulation D to provide additional flexibility
to issuers and to clarify and modernize the rules to comport better with the
modern marketplace. 43 The proposed rule was released for comment on August
3, 2007, and the SEC received 65 public comment letters.

In 2007 and 2008, CF discussed the merits of this rule with the former SEC
Chairman Christopher Cox and SEC Commissioners and made efforts to finalize
this rule. The Commission, however, has neither finalized, nor established a
timeframe to finalize this rule. Finalizing a rule requires the Commission to
consider and incorporate the public’s comments into a final rule, which is then
adopted by vote of the full Commission. Once adopted, the rule becomes a part
of the official rules that govern the securities industry.


43
  See SEC Proposed rules; request for additional comments, Revisions of Limited Offering
Exemptions in Regulation D, Release No. 33-8828, 72 FR 45116, August 10, 2007.
Regulation D Exemption Process                                                  March 31, 2009
Report No. 459
                                          Page 15
While some aspects of the proposed rule may need to be revised due to major
changes in the economy and marketplace that have occurred since the rule was
proposed in 2007, certain provisions of this rule, if finalized, could assist both the
Commission and state regulatory agencies in enforcing compliance with
Regulation D. For example, the rule proposes to:

     •   Preclude securities law violators, especially repeat violators (recidivists),
         from participating in all Regulation D offerings. Currently, individuals who
         abuse Rule 505, are only precluded from participating in offerings
         pursuant to Rule 505, but may continue to participate in Rule 504 and 506
         offerings. The proposed rule also includes disqualification provisions for
         offerings under Rules 504 and 506.

         This provision, if adopted, would fill a gap, which resulted from the
         National Securities Market Improvement Act (NSMIA) of 1996. 44 Prior to
         NSMIA, recidivists were excluded from most Rule 506 offerings by state
         disqualification provisions. NSMIA preempted the states from enforcing
         those provisions in favor of federal regulation, which has raised the
         question of whether federal disqualification provisions should be adopted
         to replace the state provisions.

     •   Strengthen Rule 504 to limit the resale of certain securities by requiring
         certain investors to hold the securities for at least 12 months before the
         securities may be resold. This provision is intended to combat certain
         “pump and dump” schemes, whereby individuals purchase securities,
         fraudulently inflate their value and then immediately sell the securities for
         a profit. 45 OCIE examinations (as discussed on pages 11-12 of this
         report) have identified such abuses.

Filing a Form D Notice Should be a Required Condition for Claiming the
Exemptions in Rules 504, 505 and 506 of Regulation D

In 1989, the Commission amended Regulation D to eliminate the requirement to
file Form D as a condition for the availability of the Regulation D exemptions. 46
The Commission implemented this change in response to industry comments
that conditioning the availability of the exemptions on filing Form D was too
draconian. Industry advocates claimed that an issuer could fail to file a Form D
due to an inadvertent oversight and should not be punished for a minor technical
violation. Further, the industry asserted that the provisions of Regulation D are


44
   Public Law No. 104-290, October 11, 1996.
45
   SEC Proposed rules; request for additional comments; Revisions of Limited Offering
Exemptions in Regulation D, Release No. 33-8828, 72 FR 45116, August 10, 2007, pages 72-74.
46
   SEC Final rules: Regulation D; Accredited Investor and Filing Requirements, Release No. 33-
6825, 54 FR 11369, March 20, 1989.
Regulation D Exemption Process                                                  March 31, 2009
Report No. 459
                                          Page 16
not as critical as other provisions of the securities laws and regulations and that
Form D is largely an information gathering device.

When Regulation D was amended in 1989, the Commission added Rule 507,
which disqualifies an issuer from claiming a Regulation D exemption if it has
been enjoined by a court for failing to file a Form D. 47 While Rule 507 was
intended to be an incentive for issuers to file Form D, 48 the Commission has
never sought or obtained any injunctions for failure to file a Form D to date. CF
and Enforcement staff have informed us that Enforcement staff tend not to
pursue such remedies because Regulation D abuses are not as attractive to the
courts as fraud cases.

As a consequence, there is currently no effective method for the Commission to
enforce the Rule Form D filing requirement. In fact, CF officials have informed us
that many companies that rely on the Regulation D exemptions reportedly do not
file a Form D, and that issuers’ lawyers frequently advise their clients that filing
Form D is essentially voluntary. 49 Further, as illustrated in this report, OCIE
examinations identified several instances where issuers should have filed, but
failed to file a Form D. Because many companies do not comply with the Form D
filing requirement, the reliability and usefulness of the aggregate data from Form
D filings is limited. We believe that requiring the filing of a Form D as a condition
to claiming the Regulation D exemptions would assist the Commission in
enforcing the Form D filing requirement and would increase the reliability and
usefulness of the aggregate data obtained from Form D filings.

Recommendation 4

The Division of Corporation Finance should reintroduce its Early Intervention
Program and utilize this program to assist in the enforcement of Regulation D
and other securities laws and regulations.

Recommendation 5

The Division of Corporation Finance (CF) should develop criteria describing
when it is appropriate to refer potential Regulation D abuses to its Office of
Enforcement Liaison and when such referrals should subsequently be forwarded
to the Division of Enforcement (Enforcement) for appropriate action. Additionally,
CF and Enforcement should improve the communication and coordination

47
   Id.
48
   SEC Final rule; Electronic Filing and Revision of Form D, Release No. 33-8891, 73 FR 10592,
February 27, 2008, pages 5-6.
49
   While the Commission had proposed to eliminate the Form D filing requirement in 1996, it
subsequently determined that the information collected in Form D filings as still useful to conduct
economic and other analyses of the private placement market and retained the requirement. Id.
at 10.
Regulation D Exemption Process                                                       March 31, 2009
Report No. 459
                                            Page 17
between staff in CF’s Office of Small Business Policy and Enforcement staff.
Specifically, staff in CF’s Office of Small Business Policy should periodically
remind Enforcement about the expertise that they could provide to Enforcement
staff regarding Regulation D issues, assist Enforcement with specific aspects of
referrals pertaining to Regulation D issues, and/or offer training sessions to
Enforcement staff.

Recommendation 6

The Division of Corporation Finance (CF) should take further efforts to finalize
the Commission’s proposed rule, “Revisions of Limited Offering Exemptions in
Regulation D” (Release No. 33-8828, August 10, 2007, 72 FR 45116). For
example, CF could discuss the merits of this proposed rule with the SEC’s new
Chairman, the Commissioners and Commission senior staff.

Recommendation 7

The Division of Corporation Finance should raise with the Commission, the
option of making the filing of Form D a required condition for issuers to claim the
Regulation D exemptions contained in Rules 504, 505 and 506.


Finding 3: The OIG Identified Several Instances of
Non-compliance with Regulation D
        The OIG judgmentally sampled 41 Form D filings and found
        that approximately one-third of the filers filed Form D late
        and one company solicited its offering on its Internet site,
        which is prohibited by Regulation D. The OIG also identified
        errors related to issuers’ reported minimum investment
        amounts and the state of incorporation or organization.

        These violations and abuses illustrate the need for CF to
        take a more active role in ensuring Regulation D compliance
        and to contact issuers that abuse the Regulation D
        provisions.

Deficiencies Identified by the OIG

Beginning on September 15, 2008, companies were able to file SEC’s new Form
D electronically, on EDGAR, using the Internet. The completed Form Ds are
available to the public, in their entirety, on EDGAR. As of December 16, 2008,


Regulation D Exemption Process                                          March 31, 2009
Report No. 459
                                     Page 18
issuers had filed 322 electronic Form Ds on EDGAR. We judgmentally selected
and reviewed 41 of 322 filings. 50

We analyzed the 41 filings and identified the following deficiencies:

     •   Eighteen filers (43.9 percent) filed a form D late because they did not file
         the Form within 15 calendar days of the date of the first sale of securities,
         as required by Regulation D. 51 It is important to ensure that the purpose
         of having issuers file Form D timely is to allow regulators more time to
         intervene (before all the capital has been raised) in the event that fraud or
         other improprieties are identified. Further, according to an OCIE
         examination report issued in 2008, when an issuer files a Form D late or
         not at all, the marketplace, and specifically the individual retail investors
         who purchase and hold the shares, lack necessary information regarding
         the size of the issuance. This typically results in a dilution of the value of
         the stock holdings in the issuance, and accordingly, reduces the value of
         the stock.

     •   One filer (2.4 percent) solicited its offering on its public website. General
         solicitation of securities issued pursuant to a Regulation D exemption is
         prohibited. We identified this general solicitation on December 24, 2008,
         and alerted CF to this on January 2, 2009. On March 20, 2009, CF
         referred this issue to Enforcement.

     •   Only 14 filers (34.1 percent) included information about the size of their
         companies in terms of revenue range or aggregate net asset value range,
         as requested in item 5 of Form D. Most of these filers declined to disclose
         this information, as permitted by the new Form D. This information is
         important because the Regulation D program is intended to assist small
         businesses and, if issuers choose to not disclose this information, CF is
         hampered in its ability to determine to what extent small businesses
         benefit from the program. In a Commission meeting, a CF official stated
         that one objective for requesting this information was to determine how
         many smaller issuers use the Regulation D exemptions and for what
         purposes they are used. 52

         Further, the Commission’s final rule regarding the revision of Form D
         states:



50
    See Appendix IV for a detailed description of how the OIG judgmentally selected these 41
filings.
51
    The date of the first sale of securities is defined as the date on which the first investor is
irrevocably contractually committed to invest.
52
    Transcript of SEC Open Commission meeting on December 11, 2007, page 38.
Regulation D Exemption Process                                                           March 31, 2009
Report No. 459
                                              Page 19
                We continue to believe that this information [revenue range
                or aggregate net asset value range] will help us to determine
                the types and sizes of most issuers that rely on the
                Regulation D and Section 4(6) exemptions. For instance, as
                noted in the proposing release, this information will increase
                significantly the effectiveness of the data collected as a tool
                for assessing the use of the Regulation D exemptions for
                small businesses and other different sizes of issuers. 53

We performed our analysis manually; as the SEC’s electronic system for
analyzing Form Ds was not functional at the time of our review. The SEC
launched this system on March 16, 2009. CF has not performed a similar
analysis. Using this new system, SEC staff now have the ability to analyze data
much more quickly and in the aggregate.

During the audit, we provided CF with a spreadsheet detailing the results of our
analysis, identifying the issuers that filed the 41 Form D filings we reviewed and
the problems we identified with each filing.

Recommendation 8

The Division of Corporation Finance (CF) should issue additional guidance to
issuers on the Form D filing requirements. This could be accomplished by
reiterating the Form D filing requirements at relevant meetings and symposiums
and by adding information to CF’s public website about the filing process. CF
could also enhance compliance with the Form D filing requirement by developing
and sending a “form” letter to issuers that failed to file a Form D or did not timely
file a Form D.


Finding 4: Form D Should be Improved
        While the new electronic Form D is an improvement over the
        prior Form D, the Form should be further revised to clarify
        the form and help ensure that potential investors are not
        misled.

Based on our review of 41 Form D filings, we identified several revisions that
should be made to the new Form, as described below.




53
  SEC Final rule; Electronic Filing and Revision of Form D, Release No. 33-8891, 73 FR 10592,
February 27, 2008, p.24.
Regulation D Exemption Process                                                  March 31, 2009
Report No. 459
                                          Page 20
    •   Form D should include a disclaimer statement, which conveys that the
        Commission has not necessarily reviewed the Form and has not
        determined if the information contained in the Form is truthful or complete
        and that any representation to the contrary is a criminal offense. The
        statement should also convey that the reader should not assume that the
        information in the Form is accurate or complete.

        Prior to September 15, 2008, Form D filings were available from the
        Commission in paper form for free or at a modest cost. Individuals could
        also pay a fee to a third party vendor to access electronic copies of the
        Form D filings. Now, all Form D filings made on or after March 16, 2009,
        are available on EDGAR, in their entirety, at no cost, to anyone with an
        Internet connection. CF officials raised concerns that companies may try
        to solicit investors by representing or implying that the Commission
        “approved” the Form D filings. In fact, the SEC does not currently review
        any substantive information in the filings and has never “approved” any
        Form D filings. Further, SEC registration statements, such as the S-1 and
        S-3, contain disclaimer statements similar to those described above.

        According to CF, SEC registration statements, unlike Form D, were
        designed to be investor disclosure documents and, therefore, are not
        comparable to Form D filings. Nevertheless, the public may still rely upon
        information contained in Form D filings and we believe that the Form D
        filings should contain a disclaimer statement.

    •   Item 1 of Form D (Issuer’s Identity) should be revised so to ensure that
        each issuer’s state of incorporation or organization appears as a valid
        entry on Form D. In our review of 41 filings, we found three instances
        where the issuer’s state of incorporation or organization appeared as “D0”
        or “E9”. CF informed us that these codes were displayed incorrectly due
        to a technical issue and CF has brought this issue to OIT’s attention.

    •   Item 5 of Form D (Issuer’s Size) should be revised to ensure that the
        electronic version of the Form contains the relevant headings in the text of
        the electronic Form. Currently, item 5 of the hard copy version of Form D
        contains brief headings, which convey that the issuer needs to fill in
        information related either to the “Revenue Range” or the “Aggregate Net
        Asset Value Range” of the offering. However, the electronic version of the
        Form does not contain these headings. As a result, it is not clear on the
        electronic Form D, which column issuers are required to fill in. CF
        informed us that it has already recommended that OIT implement this
        change.

    •   Item 11 of Form D (Minimum Investment Amount) should be revised to
        allow issuers to select a choice reflecting that an offering has no minimum
Regulation D Exemption Process                                          March 31, 2009
Report No. 459
                                      Page 21
        investment amount. This could be accomplished by replacing the current
        choice of “zero” with “no minimum investment.”

        Currently, item 11 contains a “drop down” menu of choices, but the menu
        does not include a choice indicating that there is no minimum investment
        amount. As a result, issuers may instead select “zero” from the dropdown
        menu, as the minimum investment amount. Selecting “zero” as a
        minimum investment amount is erroneous because it is not possible to
        invest in a company without actually providing money or other assets to
        the company. In our sample of 41 filings, we found that eight (19.51%)
        issuers selected “zero” as the minimum investment amount.

Recommendation 9

The Division of Corporation Finance should discuss the following enhancements
to Form D with the Office of Information Technology (OIT) and work with OIT to
make the following revisions to Form D:

    •   Form D should include a statement conveying that the Commission has
        not necessarily reviewed the Form and has not determined if the
        information contained in the Form is truthful or complete and that any
        representation to the contrary is a criminal offense. The statement should
        also convey that the reader should not assume that the information in the
        Form is accurate or complete;

    •   Item 1 of Form D (Issuer’s Identity) should be revised so to ensure that
        each issuer’s state of incorporation or organization appears as a valid
        entry on Form D;

    •   Item 5 of Form D (Issuer’s Size) should be revised to ensure that the
        electronic version of the Form contains headings in the text of the
        electronic Form stating that issuers need to fill in information related either
        to the “Revenue Range” or the “Aggregate Net Asset Value Range” of the
        offering; and

    •   Item 11 of Form D (Minimum Investment Amount) should be revised to
        allow issuers to select a choice indicating that an offering does not have a
        minimum investment amount. This could be accomplished by replacing
        the current choice of “zero” with “no minimum investment.”




Regulation D Exemption Process                                             March 31, 2009
Report No. 459
                                       Page 22
Finding 5: CF Did Not Implement all of the
Recommendations Made in the Prior OIG Audit
Report
        The OIG’s 2004 audit report on the Regulation D exemption
        process 54 contained five recommendations. We determined
        that CF effectively implemented two recommendations, did
        not implement two recommendations, and should further
        implement one recommendation.

Recommendations that Were Implemented

The prior OIG report’s recommendations D and E stated that CF should revise
Form D and enable companies to file Form D electronically. CF, in consultation
with other Commission divisions and offices effectively implemented these
recommendations, which improved the Regulation D filing process.

Recommendations that Were Not Implemented

CF did not implement recommendation A of the prior OIG report, which stated
that CF should expand its review of SEC S-1 registration statements to
determine if companies that file SEC registration statements also file a Form D
when required. The prior audit found that 16 of a sample of 18 companies that
filed SEC S-1 registration statements disclosing the sale of unregistered
securities failed to file a required corresponding Form D. CF concluded that the
costs of implementing this recommendation outweighed the benefits and
therefore did not implement the recommendation.

Management in CF’s Office of Small Business Policy stated that it is prudent for
the staff in this office to coordinate with the CF staff who review S-1 registration
statements, as well as SEC 10-K and 8-K reports, to determine if companies that
file these statements also file a Form D when required. 55 All of these disclosure
documents require filers to disclose the existence of private placement offerings.
CF’s Office of Small Business Policy staff could assist other CF staff in reviewing
these disclosure documents and determining whether the companies filed
corresponding Form Ds when SEC registration statements, 10-Ks and 8-Ks


54
   OIG Report, Small Business Regulation D Exemption Process, Report No. 371, issued March
29, 2004.
55
   Form 10-K is the annual report that SEC registrants must file with SEC, which provides a
comprehensive overview of the company's business and financial condition and includes the
company’s audited financial statements. Form 8-K is the report that SEC registrants must file
with the SEC to announce major events that shareholders should know about.
Regulation D Exemption Process                                                   March 31, 2009
Report No. 459
                                          Page 23
identified the existence of private placement offerings. This process would assist
CF to determine compliance with the Form D filing requirements.

CF also did not implement recommendation C of the prior OIG report, which
stated that CF should track data on Regulation D offerings. CF stated that the
costs of implementing this recommendation outweighed the benefits and
therefore did not implement the recommendation. However, OIT has developed
a system that will allow CF to analyze Form D data in the aggregate. The system
was launched on March 16, 2009. Recommendation two of this report addresses
this issue by stating that CF should track and analyze the Form D data in the
aggregate and produce meaningful management reports. As a result, we are not
making an additional recommendation in this section of the report.

CF Should Further Implement One Recommendation

CF partially addressed the prior OIG audit report’s recommendation B, which
stated that CF should consult with OCIE to obtain information regarding
Regulation D compliance issues noted during examinations. We believe,
however, that CF and OCIE should further coordinate with each other. In
response to this recommendation, OCIE now forwards some, but not all of its
examination reports to CF, which discuss Regulation D issues.

According to CF staff, OCIE does not routinely send CF staff copies of pertinent
broker-dealer examinations but does routinely forward its pertinent examinations
of investment advisers to CF. 56 During the audit we forwarded copies of OCIE
examinations to CF that discussed Regulation D issues. CF staff were aware of
some but not all of these examinations. Further, OCIE does not send CF copies
of its referral memoranda that it sends to the Enforcement for possible
investigation. The prior OIG report did not specifically recommend that OCIE
forward its referral memoranda to CF but we believe this additional step would be
prudent.

If CF received all OCIE examinations and referral memoranda that discussed
Regulation D issues, CF staff could better provide expertise or guidance to OCIE
and Enforcement staff. This practice would also help CF staff to stay abreast of
the different types and frequency of Regulation D abuses, which could assist CF
in developing future policies and rules.




56
  OCIE also examines investment companies, but issues related to Regulation D generally do
not apply to these examinations. This is because investment companies do not typically solicit or
recommend investment products to clients.
Regulation D Exemption Process                                                     March 31, 2009
Report No. 459
                                           Page 24
Recommendation 10

The Division of Corporation Finance‘s (CF) Office of Small Business Policy staff
should coordinate with CF staff who review Commission registration statements,
10-Ks and 8-Ks to determine if issuers also filed Form Ds when the registration
statements, 10-Ks and 8-Ks indicated the existence of private placement
offerings. CF should also follow up with delinquent Form D filers, as appropriate.

Recommendation 11

The Office of Compliance Inspections and Examinations (OCIE) should further
coordinate with the Division of Corporation Finance (CF) to ensure that CF timely
receives copies of all OCIE examination reports that disclose misuses of the
Regulation D exemption process and potential violations or abuses of the rules
contained in Regulation D. OCIE should also provide CF with copies of all
related Enforcement referrals. CF should follow up with and offer assistance to
the Division of Enforcement and OCIE, as appropriate.


Finding 6: Firms Lack Written Guidance on Filing
Requests for Waivers of Disqualification Under
Rule 505 of Regulation D
        If firms or other issuers are found to be in violation of certain
        provisions of the securities laws, they may be prohibited
        from participating in offerings using the Rule 505 exemption
        of Regulation D and may wish to apply to the SEC for a
        waiver to participate in any future 505 offerings. Firms have
        contacted CF seeking guidance on this process and have
        asked whether formal, written guidance is available. CF
        provides oral guidance and refers inquirers to waiver
        requests from other firms, which are available on SEC’s
        website. CF, however, has not issued any written guidance
        describing how to apply for the waivers and when a firm
        should consider applying for a waiver. Written guidance
        would clarify when a firm should seek a waiver and what
        information needs to be included in a waiver request.

If firms or other issuers are found to be in violation of certain provisions of
securities laws, 57 they may be disqualified from participating in securities
57
  Rule 262, 17 C.F.R. § 230.262, provides, among other things, that the exemption provided by
Regulation “A” is not available if an issuer, or its affiliates, or its underwriter, or underwriter’s
partners, directors, or officers are subject to an administrative order, or an injunction involving
Regulation D Exemption Process                                                         March 31, 2009
Report No. 459
                                              Page 25
offerings using the Rule 505 exemption of Regulation D and must apply for a
waiver to participate in future 505 offerings. There are no similar disqualification
provisions in Rules 504 and 506, and therefore, no similar waiver provisions in
Rules 504 and 506.

These firms are typically identified through an Enforcement action. Enforcement
actions may be litigated or settled and ultimately result in the issuance of an
Order by a federal court judge or an administrative law judge. A firm’s legal
counsel may advise the firm to seek a waiver of its Rule 505 disqualification.

Enforcement staff, during discussions leading up to a settlement agreement, may
advise the counsel for the defendants or respondents (entities named in
Enforcement actions) to contact CF to discuss the conditions under which
granting a waiver of disqualification under Rule 505 would be considered.
Defendants and respondents submit waiver applications to CF. CF then
considers the facts and circumstances and may grant a waiver request. CF staff
told us that they receive approximately one or two waiver requests a month, and
that the requests are typically from large, prominent firms. In fiscal year 2007,
CF granted one waiver request. In fiscal year 2008, CF granted seven waiver
requests, several of which arose from related Enforcement proceedings.

Currently, CF has not issued any formal, written guidance on how to apply for
waivers. CF staff told us that almost all of the waiver requests are initially
deficient and need to be updated and resent to CF. Firms call CF for guidance
and, in some instances, CF determines that waivers are not necessary and
verbally advises firms not to submit a waiver application. When CF believes that
a waiver request is appropriate, CF staff direct the firms to CF’s website, which
contains actual waiver requests and CF approvals. CF staff advise firms to rely
upon waiver requests submitted by other firms as a guide.

A staff member of CF’s Office of Small Business Policy has drafted waiver
request guidance but the guidance has never been issued. CF staff stated that it
would be useful to issue such guidance, possibly on SEC’s website, but due to
the small number of waiver requests that CF receives and the resources already
available to requestors, CF did not prioritize issuing this guidance to the firms.

We believe that formal, written guidance would be especially useful if it contained
clear instructions concerning:

    •   When a wavier request is and is not appropriate;
    •   How and when to submit a request;


certain securities law violations. Similarly, Rule 505 of Regulation D is not available for the
securities of any issuer who becomes disqualified under Rule 262 of the Securities Act. See 17
C.F.R. § 230.505(b)(2)(iii).
Regulation D Exemption Process                                                     March 31, 2009
Report No. 459
                                           Page 26
     •   The substantive requirements of the request; and
     •   Where to send the request. 58

We believe that formal, written, publicly-available guidance would be useful to
firms and reduce the number of questions that CF staff receives about the waiver
process.

Recommendation 12

The Division of Corporation Finance (CF) should issue formal, written, publicly-
available guidance describing how to request a waiver of disqualification under
Rule 505 of Regulation D and under what circumstances a waiver request may
be appropriate.


Finding 7: OIT and CF Did Not Timely or
Effectively Simplify the EDGAR Authentication
Process for New Filers
         OIT and CF did not timely or effectively simplify the EDGAR
         authentication process for new filers. Commission staff
         estimated that approximately 19,000 new Form D filers are
         expected to file Form D electronically, but must first obtain
         an EDGAR authentication code. The current authentication
         process is overly complex and time-consuming and, in
         December 2007, OIT and CF agreed to work together
         immediately to simplify this process. The simplified process,
         which took effect on March 16, 2009, only consists of
         allowing new filers to attach a notarized document to their
         application as a PDF attachment, as opposed to faxing the
         document to the SEC. This simplified process is inadequate.
         Further, we agree with certain Commission staff who
         acknowledged that an effective simplification process should
         have been implemented well before March 16, 2009. As a
         result, a large number of new EDGAR filers will be subject to
         an authentication process that needs significant
         improvement.

CF estimated that it receives approximately 28,000 Form D filings each year 59
and that approximately 19,000 of those filings would be made by first-time
58
   These instructions are already included in CF’s draft guidance, which has not been issued to
the public.
59
   The SEC received 27,107 Form D filings (including amendments) in 2008.
Regulation D Exemption Process                                                     March 31, 2009
Report No. 459
                                           Page 27
EDGAR filers after March 16, 2009, when filing Form D electronically became
mandatory. 60 As a result, approximately 19,000 current Form D filers will need
authentication codes prior to making their first electronic Form D filing. According
to CF, this will make Form D filers the second largest initial registration group to
the EDGAR system. 61

Staff in CF and OIT process new EDGAR authentication codes. Prior to March
16, 2009, the EDGAR authentication process was overly complex, and
Commission staff described it as error prone, cumbersome and time
consuming. 62 Further, SEC support staff spent a considerable amount of time on
the phone assisting filers. Filers continually complained that they did not receive
e-mail messages sent from the SEC. Simplifying the EDGAR authentication
process is important to alleviate these problems, especially given the huge
expected increase in new EDGAR filers that will result from the mandatory
electronic filing of Form D.

In a Commission meeting in December 2007, OIT and CF agreed to begin
working together to simplify this process. 63 In fact, CF informed us that its staff
had been working with OIT staff for several years to simplify the process, even
prior to the Commission meeting. While CF and OIT have had at least one year
to accomplish this task, the only simplification to the process, which took effect
on March 16, 2009, was to allow filers to send a required notarized document to
the SEC as a PDF attachment to an applicant’s online application, as opposed to
faxing the document to the SEC. This simplification addresses only one minor
step in the authentication process, failed to address the inherent problems with
the process and was not even being implemented in a timely fashion. As a
result, many of the problems identified above with the EDGAR authentication
process still remain. Commission staff noted that they plan to further simplify the
authentication process.

The simplification process took effect on March 16, 2009, but certain SEC staff
acknowledged that it was supposed to be in place well before this date.
Simplifying the process prior to March 16, 2009, would have given Commission
staff more time to address problems with the new process prior to receiving a
potentially significant increase in the number of electronic Form D filings. While
all of the estimated 19,000 new Form D filers did not need an authentication code
by March 16, 2009, they will need an authentication code prior to filing their first
electronic Form D or electronic Form D amendment with the SEC.



60
   Transcript of SEC Open Commission meeting on December 11, 2007, pages 22 and 32.
61
   According to OIT, 200,000 to 300,000 individuals and entities currently have EDGAR
authentication codes.
62
   The EDGAR authentication process is described in Appendix III.
63
   Transcript of an Open Commission meeting on December 11, 2007, page 37.
Regulation D Exemption Process                                                March 31, 2009
Report No. 459
                                         Page 28
Based on our analysis and discussions with CF and OIT management, we
concluded that these organizations did not effectively communicate or coordinate
with each other to implement an adequate simplified authentication process in a
timely manner. CF told us that OIT was not responsive to CF’s proposed
simplification processes, while OIT claimed that CF’s proposed solutions were
not feasible.

CF management suggested that the Commission ascertain how other agencies
(federal and/or non-federal) have implemented similar authentication processes
so that new system users can file documents electronically. We concur and note
that by learning about other agencies’ procedures, the SEC could better critique
and further simplify its own authentication process.

Recommendation 13

The Office of Information Technology (OIT), in consultation with the Division of
Corporation Finance (CF), should evaluate the Commission’s current EDGAR
authentication process, and OIT should make necessary changes to further
simplify or streamline the authentication process, as appropriate. To facilitate
this process, CF should communicate related problems and proposed changes to
OIT as soon as they become apparent and OIT should respond accordingly.

Recommendation 14

The Office of Information Technology (OIT) should analyze how other agencies
(federal and/or non-federal) have implemented authentication processes to
enable new users to file documents electronically, and determine if the SEC
should implement any of the processes used by other agencies. OIT should
implement any appropriate procedures to further streamline and simplify its own
EDGAR authentication process.


Finding 8: The Commission’s Coordination with
State Regulators Needs to Continue to Improve
        State regulatory staff at NASAA informed the OIG that the SEC has not
        effectively coordinated with them to implement a state-sponsored system
        that would enable issuers to file Form D electronically with the states, nor
        did the SEC seek NASAA’s input on SEC proposed rules related to
        Regulation D. Further, SEC Commissioner Aguilar has recognized the
        need for increased SEC coordination with NASAA.




Regulation D Exemption Process                                           March 31, 2009
Report No. 459
                                      Page 29
The primary mission of both the SEC and NASAA is to protect investors. Section
19(d) of the Securities Act, 64 authorizes the SEC to cooperate with any
association (such as NASAA) comprised of state securities regulators that could
assist in effectuating greater uniformity in federal-state securities matters and
provides that the SEC shall, at its discretion, cooperate, coordinate, and share
information with such an association to increase federal-state cooperation and
uniformity in securities matters.

The Commission staff have drafted a proposed Memorandum of Understanding
(MOU) for execution by the Commission and NASAA, regarding mutual
cooperation. However, as of the issuance of this report, it had not been finalized.
The MOU specifies coordination efforts between the SEC and NASAA, which
would ultimately result in issuers being able to file Form D electronically with the
states. Currently, issuers can only file Form D electronically with the SEC and
must file paper Form Ds with their respective states.

Further, on January 10, 2009, in a speech addressed to NASAA, SEC
Commissioner Aguilar stated:

          I think a strong, collaborative relationship between NASAA and the
          SEC is critical to pursuing robust enforcement efforts. There are
          many ways to do this. One suggestion would be to consider
          establishing a standing SEC-NASAA Task Force in order to monitor
          financial activity across North America, consider the accumulated
          risk, and share and discuss recommendations for appropriate
          action. Another suggestion to improve and strengthen this
          relationship would be to have a NASAA representative at the SEC.

          I think either idea, and perhaps others, could substantially improve
          collaborative efforts and would benefit investors around the nation
          and North America, as state, provincial, and federal enforcement
          officials work together to implement regulatory reform and spot
          fraudulent schemes.

We contacted five senior officials at NASAA to obtain their views on the SEC’s
coordination with NASAA and any areas in which they believe the SEC should
improve its implementation of the Regulation D filing process. The comments
from these officials are categorized and summarized below as follows:

NASAA Has a Good Working Relationship with the SEC. The NASAA
officials said they have a good working relationship with the SEC, and particularly
with the staff in CF’s Office of Small Business Policy and the SEC’s Fort Worth


64
     15 U.S.C. § 78s(d).
Regulation D Exemption Process                                            March 31, 2009
Report No. 459
                                        Page 30
Regional Office. The NASAA officials also lauded the SEC for revising Form D
and implementing a means to file the Form electronically.

Better SEC Enforcement Related to Regulation D is Needed. The NASAA
officials said that the SEC does not enforce issuer compliance with the
Regulation D filing process and relies upon the “honor system” to determine
whether issuers are effectively carrying out the requirements of Regulation D.
Further, the SEC does not impose any consequences on companies that fail to
file a Form D or that file the Form late.

One NASAA official said the staff from one State routinely sends CF information
about issuers that are engaged in fraudulent activities related to Regulation D,
but the SEC never takes any action. Another NASAA official said that the
regulatory tone is “set at the top,” and additional SEC enforcement of Regulation
D would lead to more effective enforcement by the states.

Better Communication with the SEC is Needed Regarding the NASAA-
Sponsored Electronic Form D Filing System. NASAA officials said that the
SEC, including CF and OIT staff, did not effectively coordinate with NASAA staff
to discuss how the SEC would link EDGAR to a NASAA-sponsored system that
state securities’ regulators are expected to develop. This system would allow
issuers to file Form D electronically with the SEC and the states in one filing
session. While filers are now able to file Form D electronically with the SEC, the
filers must mail a paper copy to their respective state regulators.

The states have not yet developed a system to accommodate electronic filing of
Form D at the state level. The NASAA officials said this is partly because of the
SEC’s lack of coordination with the state regulators, and NASAA’s lack of access
to SEC officials to discuss the requirements that will be necessary for the future
system to link to the SEC’s EDGAR system. One NASAA official said that
NASAA staff met with the SEC twice in 2007 to discuss the electronic system,
but the meetings were not very productive. This NASAA official also stated that
the state securities regulators did not have the minimum amount of information
required to make a decision regarding what type of system to develop until
August 2008. NASAA staff said that going forward, additional communication
with the SEC is needed to discuss the nature of the state filing system and the
requirements that will enable it to link to EDGAR.

Finally, the NASAA officials expressed frustration that the state filing system was
not launched in tandem with the EDGAR modification that allowed issuers to file
Form D electronically with the SEC.




Regulation D Exemption Process                                         March 31, 2009
Report No. 459
                                     Page 31
The SEC Should Share its Regulation D Database with NASAA. A NASAA
official suggested that SEC should allow the states to access this system to
analyze Form D data so the states can create management reports and analyze
data in the aggregate.

Better Communication with NASAA regarding SEC Rulemakings is Needed.
NASAA officials said the SEC did not include them in discussions about two
recent rulemakings regarding Regulation D. A NASAA official said that it is
important for the SEC to discuss issues with NASAA early in the course of such
rulemakings, before proposed rules are issued for public comment, because
NASAA staff, unlike SEC staff, enforce compliance with Regulation D and are
routinely involved in related cases.

NASAA Officials Expressed Frustration that Enforcement of Rule 506 has
been Curtailed at the State Level. Prior to the National Securities Market
Improvement Act (NSMIA) of 1996, 65 recidivists (i.e., repeat securities law
violators) were excluded from participating in most Rule 506 offerings by state
disqualification provisions, and the states were able to enforce compliance with
this exclusion. In 1996, NSMIA preempted the states from enforcing these
provisions in favor of federal regulation. This change has raised the question of
whether federal disqualification provisions should be adopted for offerings issued
pursuant to Rules 504 and 506. Currently, recidivists are only precluded from
participating in offerings pursuant to Rule 505.

In August 2007, the SEC proposed a rule that contained a provision to preclude
recidivists from participating in all Regulation D offerings pursuant to Rules 504,
505 and 506. 66 The Commission has neither finalized, nor established a
timeframe for finalizing this proposed rule.

CF’s Response to NASAA’s Comments. CF staff believe they have
extensively and effectively coordinated with NASAA. CF staff stated that they
sought the views of NASAA members on proposed rules regarding both
Regulation D and Form D and provided a copy of the SEC’s new Form D to
NASAA before the Form was publicized. While CF stated that it regrets that a
state electronic filing system was not launched in tandem with SEC’s electronic
filing system, CF noted that such coordination would have delayed any electronic
filing by years. Further, CF stated that it is unaware of any allegations of
fraudulent conduct on which CF has not acted.




65
  Public Law No. 104-290, October 11, 1996.
66
  SEC Proposed rules; Request for additional comments; Revisions of Limited Offerings
Exemptions in Regulation D, Release No. 33-8828, 72 FR 45116, August 10, 2007, pages 61-68.
Regulation D Exemption Process                                                March 31, 2009
Report No. 459
                                         Page 32
Recommendation 15

The Division of Corporation Finance (CF) should work with the North American
Securities Administrators’ Association (NASAA) to finalize the Commission’s
Memorandum of Understanding with NASAA and recommend that the
Commission approve it.

Recommendation 16

The Division of Corporation Finance should timely and appropriately coordinate
with staff at the North American Securities Administrators’ Association to develop
a system that can be linked to the Commission’s Electronic Data Gathering and
Retrieval system, enabling issuers to file Form D electronically with the states.

Recommendation 17

The Division of Corporation Finance (CF) should take into account all of the
comments and suggestions described above and implement appropriate action.
In particular CF should:

    •   Determine to what extent CF can further coordinate with staff at the North
        American Securities Administrators’ Association (NASAA), as in the
        manner described by Commissioner Aguilar, and take appropriate action;
        and
    •   Contact appropriate staff at state regulatory organizations, such as
        NASAA, when CF staff are discussing and drafting proposed rule changes
        pertaining to Regulation D.




Regulation D Exemption Process                                        March 31, 2009
Report No. 459
                                     Page 33
                                                                          Appendix I


                                      Acronyms

CF                               Division of Corporation Finance
EDGAR                            Electronic Data Gathering and Retrieval System
Enforcement                      Division of Enforcement
FINRA                            Financial Industry Regulatory Authority
MOU                              Memorandum of Understanding
NASAA                            North American Securities Administrators’ Association
OCIE                             Office of Compliance Inspections and Examinations
OEL                              Office of Enforcement Liaison
OIG                              Office of Inspector General
OIT                              Office of Information Technology
SEC or Commission                U.S. Securities and Exchange Commission
Securities Act                   Securities Act of 1933




Regulation D Exemption Process                                            March 31, 2009
Report No. 459
                                          Page 34
                                           Appendix II


                                 Form D




Regulation D Exemption Process             March 31, 2009
Report No. 459
                                 Page 35
                                           Appendix II




Regulation D Exemption Process             March 31, 2009
Report No. 459
                                 Page 36
                                           Appendix II




Regulation D Exemption Process             March 31, 2009
Report No. 459
                                 Page 37
                                           Appendix II




Regulation D Exemption Process             March 31, 2009
Report No. 459
                                 Page 38
                                                                                   Appendix III


               EDGAR Filer Authentication Process
Process up until March 15, 2009

Filers register on the EDGAR system by completing an electronic form. They
use the EDGAR Filer Management website for this purpose and fill in the form
giving information about the individual or company. The filer also enters a code,
called a passphrase, which the filer uses later in retrieving the rest of its access
codes. After the electronic form is completed, the EDGAR system gives the filer
instructions as to the next step in the process and an accession number (a
unique number by which EDGAR identified the filing) that the filer can use when
referring to the electronic Form ID submission. The filer then prints the form and
has the document notarized. The filer submits the notarized form via fax to CF
filer support. The filer has two days to complete both of these processes, at
which time the unmatched paper or electronic documents are discarded.

The CF filer support team receives the electronic forms as an EDGAR
assignment in an inbox used expressly for this purpose. The team must then
manually match the electronic form to the notarized paper form. Once they find
the matching form, Filer Support staff release the assignment, which allows the
submission to continue processing through the system. A message is sent to the
filer via the e-mail address entered into the electronic Form ID. The message
gives the filer a Central Index Key number, which uniquely identifies the entity as
a filer. Using that number and the passphrase the filer created when it
completed the Form ID, the filer can retrieve the rest of their access codes. (This
includes the Company Confirmation Code that is used to give filing agents
permission to do a third party filing, the password used to log into EDGAR, and
the Password Modification Authorization Code used to change the password
before it expires.) Of all the codes, only the password expires on an annual
basis. 67


Process as of March 16, 2009

The process is the same as above, except filers were permitted to submit the
notarized form as a PDF attachment to their electronic Form D application
instead of faxing it to CF filer support.




67
     We obtained a written overview of the EDGAR filer authentication process from OIT.
Regulation D Exemption Process                                                      March 31, 2009
Report No. 459
                                             Page 39
                                                                    Appendix IV


                         Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We obtained information on applicable policies and procedures,
background documents, CF’s Early Intervention Program, CF’s waiver review
process, the Commission’s EDGAR system, the Commission’s simplified EDGAR
authentication process, and applicable SEC proposed and final rules. We
assessed the timeliness and accuracy of a sample of Form D filings. We
obtained copies of OCIE examination reports and referrals to Enforcement
covering the time period from October 1, 2007 to December 31, 2008. We
obtained information showing the status of CF’s implementation of prior OIG
audit recommendations regarding the Regulation D program (Small Business
Regulation D Exemption Process, Audit No. 371, March 29, 2004). We
conducted our fieldwork from November 2008 to February 2009.

Methodology. We reviewed applicable policies and procedures, CF’s Early
Intervention Program, CF’s waiver review process, applicable background
documents and SEC proposed and final rules. We also reviewed OCIE
examination reports that discussed issues related to Regulation D, as well as
Enforcement referrals involving potential Regulation D abuses. We reviewed and
relied upon workpapers from our prior audit on this program (Small Business
Regulation D Exemption Process, Audit No. 371, March 29, 2004).

We reviewed data to determine the timeliness and accuracy of a sample of Form
D filings and to estimate the average amount of capital intended to be raised
through the Regulation D process for calendar year 2008.

We held discussions with representatives from CF, OCIE, OIT and OS to learn
about the program and to discuss and confirm our findings. We also contacted
officials at NASAA, to obtain their views on the Commission’s Regulation D
exemption program.

Internal/Management Controls. We reviewed internal/management controls as
they pertained to the objectives of our audit.




Regulation D Exemption Process                                       March 31, 2009
Report No. 459
                                    Page 40
                                                                         Appendix IV

Use of Computer-Processed Data. We relied on data from the SEC’s EDGAR
system, which included the number of Form D filings processed in calendar years
2007 and 2008, as well as the number of Form D filings received from
September 15, 2008 through December 31, 2008. The EDGAR system does not
process any of the data contained in the Form D filings, but rather only stores the
filings in electronic format. As a result, we considered the relevant risks to be:
    •   An EDGAR system failure to receive or retain a Form D filing from an
        issuer; and
    •   Information security risks related to whether Form D information in the
        EDGAR system could be compromised.

We considered the risk surrounding information security. In November 2007, OIT
certified and accredited the EDGAR system, as required by the Federal
Information Security Management Act of 2002. Therefore, we believe that we
can rely upon the information in the EDGAR system as it pertains to information
security.

Judgmental Sampling. We reviewed a sample of 41 Form D filings that were
filed electronically between September 15, 2008 and December 16, 2008. We
selected this time period because September 15, 2008 was the first date when
filers were allowed to file Form D electronically. Further, the SEC established a
new Form D, which was available to filers on September 15, 2008. Between
September 15, 2008 and March 16, 2009, issuers were permitted to file the new
or prior Form D. As of March 16, 2009, all filers were required to file the new
Form D. As a result, we limited our analysis to only the new Form D filings. We
performed our analysis in mid-December and, therefore, looked at Form D filings
submitted as of December 16, 2008.

Using EDGAR, on December 16, 2008, we printed out a list of all the Form Ds
filed between the time period selected (September 15, 2008 to December 16,
2008). EDGAR listed a total of 322 Form D filings. We judgmentally selected the
first filing, and every eighth filing thereafter, for a total of 41 filings. The purpose
of the review was to determine the accuracy and timeliness of the filings.

OIG Estimate of Capital Intended to be Raised Pursuant to Regulation D.
Neither the Commission nor any other private entity of which we are aware
aggregates information on the total amount of capital raised or intended to be
raised through the Commission’s Regulation D exemption process. Because all
Form Ds were filed in paper form until September 15, 2008, aggregating this
information would had to have been done manually, which would have been very
time consuming.

Therefore, the OIG analyzed a sample of filings and estimated the amount of
capital that may have been raised in calendar year 2008. We did this by
Regulation D Exemption Process                                             March 31, 2009
Report No. 459
                                       Page 41
                                                                       Appendix IV

analyzing all of the electronic Form D filings filed between September 15, 2008
and December 31, 2008. We selected this time period because September 15,
2008 was the first date when filers were able to file Form D electronically. We
performed our analysis in January 2009, and determined that data collected as of
December 31, 2008, was sufficient for the purposes of our estimate. We only
examined the electronically filed Form Ds because these Forms were easily
accessible, through EDGAR, unlike the paper Form Ds.

According to EDGAR, between September 15, 2008 and December 31, 2008,
373 electronic Form Ds were filed with SEC. We printed out each filing and
recorded the amount of capital each issuer intended to raise through a
Regulation D offering. This figure was identified as “Total Offering Amount” in
item 13 of Form D. The actual amount of capital raised by each filer is often not
known at the time of a Form D filing and, therefore, is not recorded on the Form
D.

In 321 out of 373 instances, filers included a dollar figure in item number 13 of
Form D, “Total Offering Amount,” and, in 52 instances, filers indicated that the
offering amount was “indefinite.” Therefore, we removed these 52 “indefinite”
filings from our analysis since they did not contain a dollar figure. Our sample
consisted of the remaining 321 Form D filings.

According to EDGAR, issuers filed 20,021 Form D filings with the SEC in
calendar year 2008. This figure does not include Form D amendments. We did
not include amendments in our analysis to avoid double counting any
information. According to our sample of 321 filings:

    •   The aggregate “Total Offering Amount” was $9,764,844,494.
    •   The average “Total Offering Amount” per filing was $30,420,076
        ($9,764,844,494 / 321).
    •   This average, multiplied by the total number of filings in calendar year
        2008, resulted in an estimate of $609,040,347,708 ($30,420,076 *
        20,021).

Thus, the OIG estimated the total amount of capital intended to be raised through
the Regulation D process to be $609,040,347,708 in calendar year 2008.

This figure is only an estimate and several factors could skew this estimate. For
example:

    •   Many companies do not file a Form D when raising capital in reliance on a
        Regulation D exemption. The number of non-filers is unknown and
        therefore could not be included in our analysis.
    •   The OIG only reviewed Form D filings that were filed electronically
        between September 15, 2008 and December 31, 2008. The economy
Regulation D Exemption Process                                           March 31, 2009
Report No. 459
                                      Page 42
                                                                         Appendix IV

        was suffering during this period and, as a result, it is possible that fewer
        issuers raised capital pursuant to Regulation D during this period,
        compared to other times during 2008 or in prior years.
    •   CF informed us that perhaps more sophisticated, larger companies that
        generally raise larger amounts of capital chose to file Form D
        electronically instead of using a paper filing. Thus, a similar sample of
        paper filings could have resulted in a lower average capital amount per
        filing.
    •   CF management told us that they presume the actual amount of capital
        raised in a given year, using Regulation D, is over a trillion dollars;
        however, CF management was not able to provide us with a definitive
        source of this information. According to the prior OIG report on the
        Regulation D process, the Commission recorded that the nation’s small
        businesses reported unregistered offerings of $1.2 trillion in securities
        from January 2000 to March 2001.

Prior Audit Coverage. From June 2003 to January 2004, the OIG audited the
Commission’s Regulation D Filing Process and issued a related report, Small
Business Regulation D Exemption Process, Report No. 371, March 29, 2004.
The report contained 5 recommendations for improvement.




Regulation D Exemption Process                                            March 31, 2009
Report No. 459
                                       Page 43
                                                                       Appendix V


                                    Criteria
SEC Proposed and Final Rules Relevant to Regulation D, including:
  • Commission final rule: Electronic Filing and Revision of Form D, Release
     No., 33-8891, 73 FR 10592, February 27, 2008.
  • Commission proposed rule: Electronic Filing and Simplification of Form D,
     Release No. 33-8814, 72 FR 37376, July 9, 2007.
  • Commission proposed rule: Revisions of Limited Offering Exemptions in
     Regulation D, Release No. 33-8828, 72 FR 45116, August 10, 2007.
  • Commission final rules: Regulation D; Accredited Investor and Filing
     Requirements, Release No. 33-6825, 54 FR 11369, March 20, 1989.

The National Securities Market Improvement Act of 1996, Public Law No.
104-290, October 11, 1996 - Amended various provisions of several Acts,
including the Securities Act of 1933 and preempted the states from enforcing
provisions related to Rule 506 of Regulation D, in favor of federal regulation.

SEC Form D (revised as of September 15, 2008) and the prior SEC Form D -
The official notice of an offering of securities made without registration under the
Securities Act, in reliance on an exemption provided by Regulation D.

Rules 501 through 508 of Regulation D, 17 C.F.R. §§ 230.501-508 – The rules
governing the limited offer and sale of securities without registration under the
Securities Act of 1933.

Securities Act Rules: Division of Corporation Finance Compliance and
Disclosure Interpretations – Comprise CF’s interpretations of the rules adopted
under the Securities Act.

Information Memorandum to the Commission from the Divisions of
Corporation Finance and Enforcement on Waiver of the Disqualification
Provisions of Rule 252 in Connection with Settlement Offers, July 16, 1987
– the Commission’s internal procedures for the Rule 505 waiver process.




Regulation D Exemption Process                                          March 31, 2009
Report No. 459
                                      Page 44
                                                                       Appendix VI


                        List of Recommendations
Recommendation 1

The Division of Corporation Finance (CF) should develop a process to assess
and better ensure issuers’ compliance with Regulation D. CF should include in
this process a periodic review of the Form D filings, an assessment of the
accuracy and timeliness of the filings, and the identification of problems or “red
flags” with the filings. When CF believes that companies have materially
misused the Regulation D exemptions, CF should take appropriate action such
as contacting the offenders, and/or referring the matter(s) to the Division of
Enforcement, the appropriate state regulator or other regulatory authority.

Recommendation 2

The Division of Corporation Finance (CF) should establish a procedure to review
Form D information in the aggregate and develop meaningful management
reports that provide information about the filings, such as:

    •   The aggregate amount of capital intended to be raised on an annual basis;
    •   The average amount of capital intended to be raised per filing;
    •   The number of filings that were filed timely;
    •   The number of filings made by hedge funds and the aggregate net asset
        value of those funds;
    •   The number of filings made pursuant to Rules 504, 505, 506;
    •   The types of companies that use the Regulation D filing process; and
    •   The extent to which small businesses use the Regulation D process to
        raise capital.

CF should use the information in the management reports to further understand
the size and nature of the companies that raise capital through the Regulation D
process and to assist CF in developing future policies, procedures and rule
changes.

Recommendation 3

The Division of Corporation Finance (CF), in consultation with the Division of
Enforcement, should take appropriate action when issuers fail to file Form D in
accordance with Rule 503. For example, CF could establish general criteria or
guidance describing when it believes it is appropriate for the Commission to
initiate an Enforcement action against an issuer that fails to file a Form D and
request that a court enjoin an entity from violating Rule 503.


Regulation D Exemption Process                                          March 31, 2009
Report No. 459
                                     Page 45
                                                                       Appendix VI

Recommendation 4

The Division of Corporation Finance should reintroduce its Early Intervention
Program and utilize this program to assist in the enforcement of Regulation D
and other securities laws and regulations.

Recommendation 5

The Division of Corporation Finance (CF) should develop criteria describing
when it is appropriate to refer potential Regulation D abuses to its Office of
Enforcement Liaison and when such referrals should subsequently be forwarded
to the Division of Enforcement (Enforcement) for appropriate action. Additionally,
CF and Enforcement should improve the communication and coordination
between staff in CF’s Office of Small Business Policy and Enforcement staff.
Specifically, staff in CF’s Office of Small Business Policy should periodically
remind Enforcement about the expertise that they could provide to Enforcement
staff regarding Regulation D issues, assist Enforcement with specific aspects of
referrals pertaining to Regulation D issues, and/or offer training sessions to
Enforcement staff.

Recommendation 6

The Division of Corporation Finance (CF) should take further efforts to finalize
the Commission’s proposed rule, “Revisions of Limited Offering Exemptions in
Regulation D” (Release No. 33-8828, August 10, 2007, 72 FR 45116). For
example, CF could discuss the merits of this proposed rule with the SEC’s new
Chairman, the Commissioners and Commission senior staff.

Recommendation 7

The Division of Corporation Finance should raise with the Commission, the
option of making the filing of Form D a required condition for issuers to claim the
Regulation D exemptions contained in Rules 504, 505 and 506.

Recommendation 8

The Division of Corporation Finance (CF) should issue additional guidance to
issuers on the Form D filing requirements. This could be accomplished by
reiterating the Form D filing requirements at relevant meetings and symposiums
and by adding information to CF’s public website about the filing process. CF
could also enhance compliance with the Form D filing requirement by developing
and sending a “form” letter to issuers that failed to file a Form D or did not timely
file a Form D.



Regulation D Exemption Process                                           March 31, 2009
Report No. 459
                                      Page 46
                                                                         Appendix VI

Recommendation 9

The Division of Corporation Finance should discuss the following enhancements
to Form D with the Office of Information Technology (OIT) and work with OIT to
make the following revisions to Form D:

    •   Form D should include a statement conveying that the Commission has
        not necessarily reviewed the Form and has not determined if the
        information contained in the Form is truthful or complete and that any
        representation to the contrary is a criminal offense. The statement should
        also convey that the reader should not assume that the information in the
        Form is accurate or complete;
    •   Item 1 of Form D (Issuer’s Identity) should be revised so to ensure that
        each issuer’s state of incorporation or organization appears as a valid
        entry on Form D;
    •   Item 5 of Form D (Issuer’s Size) should be revised to ensure that the
        electronic version of the Form contains headings in the text of the
        electronic Form stating that issuers need to fill in information related either
        to the “Revenue Range” or the “Aggregate Net Asset Value Range” of the
        offering; and
    •   Item 11 of Form D (Minimum Investment Amount) should be revised to
        allow issuers to select a choice indicating that an offering does not have a
        minimum investment amount. This could be accomplished by replacing
        the current choice of “zero” with “no minimum investment.”

Recommendation 10

The Division of Corporation Finance‘s (CF) Office of Small Business Policy staff
should coordinate with CF staff who review Commission registration statements,
10-Ks and 8-Ks to determine if issuers also filed Form Ds when the registration
statements, 10-Ks and 8-Ks indicated the existence of private placement
offerings. CF should also follow up with delinquent Form D filers, as appropriate.

Recommendation 11

The Office of Compliance Inspections and Examinations (OCIE) should further
coordinate with the Division of Corporation Finance (CF) to ensure that CF timely
receives copies of all OCIE examination reports that disclose misuses of the
Regulation D exemption process and potential violations or abuses of the rules
contained in Regulation D. OCIE should also provide CF with copies of all
related Enforcement referrals. CF should follow up with and offer assistance to
the Division of Enforcement and OCIE, as appropriate.



Regulation D Exemption Process                                             March 31, 2009
Report No. 459
                                       Page 47
                                                                     Appendix VI

Recommendation 12

The Division of Corporation Finance (CF) should issue formal, written, publicly-
available guidance describing how to request a waiver of disqualification under
Rule 505 of Regulation D and under what circumstances a waiver request may
be appropriate.

Recommendation 13

The Office of Information Technology (OIT), in consultation with the Division of
Corporation Finance (CF), should evaluate the Commission’s current EDGAR
authentication process, and OIT should make necessary changes to further
simplify or streamline the authentication process, as appropriate. To facilitate
this process, CF should communicate related problems and proposed changes to
OIT as soon as they become apparent and OIT should respond accordingly.

Recommendation 14

The Office of Information Technology (OIT) should analyze how other agencies
(federal and/or non-federal) have implemented authentication processes to
enable new users to file documents electronically, and determine if the SEC
should implement any of the processes used by other agencies. OIT should
implement any appropriate procedures to further streamline and simplify its own
EDGAR authentication process.

Recommendation 15

The Division of Corporation Finance (CF) should work with the North American
Securities Administrators’ Association (NASAA) to finalize the Commission’s
Memorandum of Understanding with NASAA and recommend that the
Commission approve it.

Recommendation 16

The Division of Corporation Finance should timely and appropriately coordinate
with staff at the North American Securities Administrators’ Association to develop
a system that can be linked to the Commission’s Electronic Data Gathering and
Retrieval system, enabling issuers to file Form D electronically with the states.

Recommendation 17

The Division of Corporation Finance (CF) should take into account all of the
comments and suggestions described above and implement appropriate action.
In particular CF should:

Regulation D Exemption Process                                        March 31, 2009
Report No. 459
                                     Page 48
                                                                     Appendix VI


    •   Determine to what extent CF can further coordinate with staff at the North
        American Securities Administrators’ Association (NASAA), as in the
        manner described by Commissioner Aguilar, and take appropriate action;
        and
    •   Contact appropriate staff at state regulatory organizations, such as
        NASAA, when CF staff are discussing and drafting proposed rule changes
        pertaining to Regulation D.




Regulation D Exemption Process                                        March 31, 2009
Report No. 459
                                     Page 49
                                                    Appendix VII


                                 Comments from CF




Regulation D Exemption Process                       March 31, 2009
Report No. 459
                                      Page 50
                                           Appendix VII




Regulation D Exemption Process              March 31, 2009
Report No. 459
                                 Page 51
                                           Appendix VII




Regulation D Exemption Process              March 31, 2009
Report No. 459
                                 Page 52
                                           Appendix VII




Regulation D Exemption Process              March 31, 2009
Report No. 459
                                 Page 53
                                           Appendix VII




Regulation D Exemption Process              March 31, 2009
Report No. 459
                                 Page 54
                                           Appendix VII




Regulation D Exemption Process              March 31, 2009
Report No. 459
                                 Page 55
                                           Appendix VII




Regulation D Exemption Process              March 31, 2009
Report No. 459
                                 Page 56
                                           Appendix VII




Regulation D Exemption Process              March 31, 2009
Report No. 459
                                 Page 57
                                                Appendix VII

                           Comments from OCIE




Regulation D Exemption Process                   March 31, 2009
Report No. 459
                                 Page 58
                                                Appendix VII

                           Comments from OCIE




Regulation D Exemption Process                   March 31, 2009
Report No. 459
                                 Page 59
                                                                     Appendix VII


            Comments from OIT and Enforcement


Comments from the Office of Information Technology:

OIT did not provide a formal comment letter but stated in an e-mail dated March
12, 2009, that OIT concurred without comment to recommendations 13 and 14,
which are specific to OIT. OIT further stated that it would work with the Division
of Corporation Finance on other recommendations in the report as appropriate.

Recommendations 13 and 14 stated that OIT and CF should work together to
further simplify the EDGAR authentication process and that OIT should analyze
how other agencies have implemented similar authentication processes and
determine if any of those processes could be used to further simplify the SEC’s
EDGAR authentication process.

Comments from the Division of Enforcement:

Enforcement did not provide a formal comment letter but stated the following in
an e-mail dated March 25, 2009:

        While the Division of Enforcement has limited resources in general,
        if the Commission informs us that this is an area in which they want
        us to focus, we will do so. We will review the referrals regarding
        Regulation D and recommend actions to the Commission where
        appropriate. There are two recommendations in this report where
        the Division of Enforcement is mentioned. In Recommendation 3
        the report recommends that the Division of Corporation Finance, in
        consultation with the Division of Enforcement, should take
        appropriate action when issuers fail to file Form D. We concur in
        this recommendation and will work with the Division of Corporation
        Finance on general criteria in this area.

        The other recommendation where the Division of Enforcement is
        referenced is Recommendation 5. We concur in the
        recommendation and will work to improve communication between
        the Divisions of Corporation Finance and Enforcement in this area.




Regulation D Exemption Process                                         March 31, 2009
Report No. 459
                                      Page 60
                                                                              Appendix VIII


     OIG’s Response to Management’s Comments

We are pleased that OCIE, OIT and Enforcement concurred with, and committed
to address the OIG report’s recommendations that pertained to these units. We
are also pleased that CF fully concurred with 10 out of the 15 recommendations
that pertained to them and partially concurred with the remaining five
recommendations.

On March 16, 2009, it became mandatory for all entities to file Form Ds
electronically with the Commission. Now, anyone with an Internet connection
can view the electronic Form D filings online and investors may rely upon this
information. The OIG’s analysis and review of OCIE examinations identified
several instances where the Regulation D exemptions were abused and illegal
activities such as “pump and dump” schemes were perpetuated through offerings
that relied upon Regulation D exemptions. As a result, we believe that the
Commission’s commitment to analyzing Form D filings in the aggregate and
taking further action to address entities that abuse the Regulation D exemptions
is warranted and will further protect investors.

We also believe these actions will support the two primary purposes of the Form
D filing process, as stated in a recent Commission rulemaking:

     •   Collection of data for use in the Commission’s rulemaking efforts; and
     •   Enforcement of the federal securities laws, including the Regulation D
         exemptions. 68

In light of the above, we hope that the Commission takes the appropriate action
to implement these recommendations as soon as possible, to improve the
Regulation D exemption process.




68
  SEC final rule: Electronic Filing and Revision of Form D, Release No. 33-8891, 73 FR 10592,
February 27, 2008, page 7.
Regulation D Exemption Process                                                   March 31, 2009
Report No. 459
                                          Page 61
                       Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




       Hotline
       To report fraud, waste, abuse, and mismanagement at SEC,
       contact the Office of Inspector General at:

       Phone: 877.442.0854

       Web-Based Hotline Complaint Form:
       www.reportlineweb.com/sec_oig
